<html>
<title> - NOMINATIONS OF GORDON HARTOGENSIS AND GAIL S. ENNIS</title>
<body><pre>[Senate Hearing 115-836]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 115-836
 
                   NOMINATIONS OF GORDON HARTOGENSIS 
                           AND GAIL S. ENNIS

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

     GORDON HARTOGENSIS, TO BE DIRECTOR, PENSION BENEFIT GUARANTY 
    CORPORATION; AND GAIL S. ENNIS, TO BE INSPECTOR GENERAL, SOCIAL 
                        SECURITY ADMINISTRATION

                               __________

                           SEPTEMBER 27, 2018

                               __________
                               
                               
                               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                
 

                                     
                                     

            Printed for the use of the Committee on Finance
            
            
            
            
            
                             ______

               U.S. GOVERNMENT PUBLISHING OFFICE 
40-861-PDF             WASHINGTON : 2020             
            
            


                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    DEBBIE STABENOW, Michigan
PAT ROBERTS, Kansas                  MARIA CANTWELL, Washington
MICHAEL B. ENZI, Wyoming             BILL NELSON, Florida
JOHN CORNYN, Texas                   ROBERT MENENDEZ, New Jersey
JOHN THUNE, South Dakota             THOMAS R. CARPER, Delaware
RICHARD BURR, North Carolina         BENJAMIN L. CARDIN, Maryland
JOHNNY ISAKSON, Georgia              SHERROD BROWN, Ohio
ROB PORTMAN, Ohio                    MICHAEL F. BENNET, Colorado
PATRICK J. TOOMEY, Pennsylvania      ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina            CLAIRE McCASKILL, Missouri
BILL CASSIDY, Louisiana              SHELDON WHITEHOUSE, Rhode Island

           Jeffrey Wrase, Staff Director and Chief Economist

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)
                                  


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Cassidy, Hon. Bill, a U.S. Senator from Louisiana................     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3

                        ADMINISTRATION NOMINEES

Hartogensis, Gordon, nominated to be Director, Pension Benefit 
  Guaranty Corporation, Washington, DC...........................     6
Ennis, Gail S., nominated to be Inspector General, Social 
  Security Administration, Baltimore, MD.........................     7

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Blumenthal, Richard:
    Prepared statement...........................................    27
Cassidy, Hon. Bill:
    Opening statement............................................     1
Ennis, Gail S.:
    Testimony....................................................     7
    Prepared statement...........................................    27
    Biographical information.....................................    28
    Responses to questions from committee members................    32
Hartogensis, Gordon:
    Testimony....................................................     6
    Prepared statement...........................................    43
    Biographical information.....................................    44
    Responses to questions from committee members................    47
Hatch, Hon. Orrin G.:
    Prepared statement...........................................    52
Wyden, Hon. Ron:
    Opening statement............................................     3
    Prepared statement...........................................    53

                                 (iii)
                                 


                   NOMINATIONS OF GORDON HARTOGENSIS,

                    TO BE DIRECTOR, PENSION BENEFIT

                       GUARANTY CORPORATION; AND

                GAIL S. ENNIS, TO BE INSPECTOR GENERAL,

                     SOCIAL SECURITY ADMINISTRATION

                              ----------                              


                      THURSDAY, SEPTEMBER 27, 2018

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:06 
a.m., in room SD-430, Dirksen Senate Office Building, Hon. Bill 
Cassidy presiding.
    Present: Senators Scott, Wyden, Cantwell, Nelson, Menendez, 
Carper, Cardin, Brown, Bennet, and McCaskill.
    Also present: Republican staff: Jeffrey Wrase, Staff 
Director and Chief Economist; Becky Cole, Policy Director; 
Nicholas Wyatt, Tax and Nominations Professional Staff Member; 
Chris Allen, Senior Advisor for Benefits and Exempt 
Organizations; and David Timmons, Detailee. Democratic staff: 
Joshua Sheinkman, Staff Director; Michael Evans, General 
Counsel; Ian Nicholson, Investigator; Sam Conchuratt, Assistant 
to the Staff Director; Drew Crouch, Senior Tax and ERISA 
Counsel; and Tom Klouda, Senior Domestic Policy Advisor.

            OPENING STATEMENT OF HON. BILL CASSIDY, 
                 A U.S. SENATOR FROM LOUISIANA

    Senator Cassidy. The Senate Finance Committee will please 
come to order.
    Good morning. I would like to welcome everyone to today's 
hearing on the nominations of Mr. Gordon Hartogensis to be the 
Director of the Pension Benefit Guaranty Corporation, and Ms. 
Gail Ennis to be the Inspector General of the Social Security 
Administration. I am pleased to chair this hearing on behalf of 
Senator Hatch who has a conflicting obligation in the Judiciary 
Committee at this time.
    Senator Blumenthal hoped to be here to introduce Mr. 
Hartogensis. Unfortunately, his schedule did not permit. But he 
has asked me to submit a statement for the record, and I ask 
unanimous consent that Senator Blumenthal's statement be 
printed in the record of this hearing. Without objection.
    [The prepared statement of Senator Blumenthal appears in 
the appendix.]
    Senator Cassidy. After Senator Wyden and I make opening 
statements, we will proceed with our panel nominees. Each will 
have 5 minutes to make remarks. After remarks, Senators will 
each have 5 minutes to ask questions.
    I shall begin. Working families are the core of our social 
fabric and economic success. American workers increasingly feel 
good about their prospects. Economic optimism is at a 13-year 
high.
    Yet for many a decade, wages and growth were stagnant. 
Health and education costs skyrocketed. Americans rightly 
expect more, particularly when it comes to retirement security 
and our knowing that those benefits will be available to those 
who truly find themselves no longer able to work due to injury 
or disability.
    Both of our nominees, if confirmed, will play a role in 
ensuring that promised benefits continue to be available to 
working families when the time comes or if there is a need. 
Particularly, we must ensure that programs administered by the 
Social Security Administration are free of waste, fraud, and 
abuse.
    Mr. Hartogensis, if you are confirmed, you will be serving 
during one of the most challenging periods in the PBGC history. 
Created in 1974, the PBGC protects the pension benefits of 
nearly 40 million Americans in private-sector pension plans. 
Last year their annual report showed that the deficit in the 
insurance program for multiemployer plans rose to $65 billion, 
up from $59 billion a year earlier.
    Congress recognizes the challenge. In March 2018, Congress 
created the Joint Select Committee on Solvency of Multiemployer 
Pension Plans in the bipartisan budget act enacted on a broad 
bipartisan basis.
    This committee was tasked with developing legislative 
proposals to improve the solvency of multiemployer pension 
plans and the PBGC. Some of my colleagues on the Finance 
Committee are also on the joint committee, and we will look 
forward to their findings and recommendations.
    This is a very difficult problem with no easy answers. In 
fact, concerns about the solvency of multiemployer pension 
plans are widespread. And some of my constituents have raised 
this issue with me and my staff.
    After you and I met, I believe that you are a strong 
nominee with outside-the-box thinking and a commitment to solve 
this very difficult problem. I was a little bit curious that 
you would even think about it as deeply as you had. But I am 
very pleased that you have. I feel confident that your 
management and finance experience will enable you to work with 
Congress to solve this problem.
    You have received support from such organizations as the 
American Benefits Council, the Associated General Contractors 
of America, the National Association of Manufacturers, and the 
U.S. Chamber of Commerce.
    Mr. Hartogensis, if confirmed--and I believe you will be--
you will have a daunting challenge ahead, but I am confident 
that you have the experience and fortitude to tackle the 
looming pension crisis.
    Ms. Ennis, you have been nominated to be the Inspector 
General of the Social Security Administration. If confirmed, 
you will be responsible for ensuring the programs administered 
by the SSA are in compliance with the Office of Inspector 
General's mission of promoting economy, efficiency, and 
effectiveness as well as detecting and preventing instances of 
fraud, waste, and abuse.
    Should you be confirmed, you have much work to do. As you 
know, the SSA continues to face many challenges, including the 
disabilities backlog, issues with the disabilities case 
processing system, data security, outdated IT infrastructure, 
payment accuracy, and fraud and abuse.
    I have particular interest in the Disability Insurance 
benefit determination process with the reinstatement of the 
reconsideration level of appeal. My State, Louisiana, is one of 
ten prototype States for which this effort of reconsideration 
will be affected.
    While I recognize that you are not a part of this Social 
Security administrative action, I raise it today as it will be 
an ongoing issue in the coming months. I also raise concerns 
with the Social Security Windfall Elimination Provision, or 
WEP, and the Government Pension Offset, or GPO.
    This is of utmost importance to public-sector workers in 
Louisiana who may be whipsawed by outdated formulas and uneven 
application of rules. While a broader formula fix is outside 
the scope of your responsibilities, I hope you will work with 
this committee to ensure WEP and GPO determinations are made 
consistently and fairly for all beneficiaries.
    Ms. Ennis, if confirmed, you will be in a position to 
inform, advise, and make recommendations to the administration 
and Congress on how to best begin to reform entitlement 
programs, especially on reforming the Social Security 
Disability Insurance program. Our meeting a few weeks ago 
confirmed to me that you are highly qualified for this position 
and that you will bring a fresh perspective to it, along with 
your extensive experience in government and independent 
investigations.
    I look forward to hearing your remarks.
    And now, Senator Wyden?

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman.
    As you have noted, the Finance Committee is going to 
consider two nominations today: Ms. Gail Ennis to serve as 
Inspector General of the Social Security Administration, and 
Mr. Gordon Hartogensis to serve as the Director of the Pension 
Benefit Guaranty Corporation.
    I am going to start my brief remarks with the Ennis 
nomination. The bottom line on why this is such an important 
post is very simple, and you can state it in a sentence. It is 
absolutely essential that the Federal Government wring value 
out of every single last dollar that goes into Social Security. 
And I have felt this way since the days when I was co-director 
of the Oregon Gray Panthers, had a full head of hair, and 
rugged good looks. I thought it then and I continue to feel it 
now.
    The Social Security Inspector General plays a major part in 
identifying ways that the program can be improved, where there 
have been missteps, and how the Congress can strengthen it with 
legislative changes. So that is a big agenda, and my own take 
is that it ought to be a bipartisan agenda.
    Now, it has been more than 2 years since Social Security 
has had a confirmed Inspector General, far too long by my take. 
So we are fortunate that we have a nominee finally before the 
committee.
    You come from the world of social insurance. In effect, we 
come from the same world, because that was my background. And 
you have a significant background in auditing financial 
institutions and working with government agencies. In my view, 
sometimes it is a good idea to bring in somebody with a fresh 
eye for these kinds of jobs.
    Now if confirmed, Ms. Ennis, you are going to have a lot of 
challenges coming at you right away: certainly the 
deterioration of service at SSA, to the disability backlog, to 
IT upgrades. The committee will count on you to work very 
closely with us to make improvements to the program, and you 
and your team--in my view--should make it a special priority to 
listen to whistleblowers. Listen to whistleblowers who have had 
a real record as it relates to social insurance and coming 
forward and talking about these problems.
    And by the way, I see my colleague, Senator McCaskill, 
here. She has been one of our go-to champions of whistleblowers 
in the United States Senate.
    Senator McCaskill, I just mentioned the point with Ms. 
Ennis of whistleblowers at Social Security, and I am sure both 
of us are going to continue to be very interested in that.
    Setting aside the specifics of this nomination for a 
minute, there is also going to be a challenge for us in the 
Congress. The Inspector General's office recently put out what 
is really an eye-popping report about the huge increase in work 
waiting to be done at these Program Service Centers.
    These service centers perform some of the most basic 
functions at the agency that are essential to maintaining 
beneficiary records. Notably, the report cited that there were 
real budget constraints, and said that was a significant part 
of the problem.
    For several years in our annual Views and Estimates letter, 
the chairman and I--as Chairman Cassidy noted, Chairman Hatch 
is not able to be here today. We have advocated that the agency 
get the budget it needs to be able to responsibly tackle these 
challenges and to get the job done. You cannot have world-class 
service when the Congress provides a third-class budget.
    Now, with respect to Mr. Hartogensis, his nomination is for 
the Pension Benefit Guaranty Corporation. This agency, as all 
of our colleagues know, faces serious challenges. Chairman 
Hatch and Senator Brown have been spending a lot of time on it, 
and we are all interested in bipartisan solutions.
    As many as 1.5 million Americans are enrolled in 
multiemployer pension plans that could become insolvent in the 
next few decades. Should that happen, that will bankrupt the 
PBGC insurance program for all multiemployer pensions, 
affecting everybody who is enrolled.
    So we are not talking about some kind of academic matter 
that you can ask a bunch of think tanks for their opinions on. 
This is a question of whether the Congress is going to work 
with the administration so that millions of Americans are going 
to be able to get by in their older ages.
    Mr. Hartogensis has had a successful career in the private 
sector, but he does not have experience in policy dealing with 
pensions or retirement security. Certainly, you have the right 
connections to be a nominee right now for a Senate-confirmed 
position, but this is a nominee with no record which this 
committee can draw conclusions about with respect to what he 
would do as the head of the agency.
    Now, Mr. Hartogensis, as I talked about with you in the 
office, I happen to think it often is a big plus to have 
somebody come from the private sector for positions like this. 
I do not have some kind of rule where, gee, if you have not 
been doing this for 10 years in a variety of other fields, that 
somehow you are disqualified.
    But as we indicated, when somebody does come from the 
outside and has not worked in the field, the bar gets a bit 
higher, because we have to be able, as we consider your 
nomination, to make some judgements about what the heck you 
might do when you get there, if confirmed. We talked about it 
some yesterday. We are going to talk about it some more today 
and focus on how we are going to get a sense of the actual 
substance with respect to how you attack all of the challenges 
PBGC faces.
    Thank you both for being with us. You are going to have 
questions from Senators. It, obviously, is a busy day in the 
Senate.
    We look forward to your opening remarks. And we will have 
questions.
    Senator Cassidy. Thank you, Senator Wyden.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    Senator Cassidy. And now I will introduce the nominees.
    Mr. Gordon Hartogensis, if confirmed, will serve as the 
Director of the Pension Benefit Guaranty Corporation. Mr. 
Hartogensis is an entrepreneur, an investor who has launched 
multiple startups that were eventually acquired by new owners. 
He is also the co-founder and CEO of Auric Technology, an on-
demand customer relationship management software company, among 
many other career positions. He earned his bachelor's degree 
from Stanford and his master's degree from Columbia University.
    Ms. Gail Ennis is nominated to be the Inspector General of 
the Social Security Administration. Most recently, Ms. Ennis 
has worked at Wilmer, Cutler, Pickering, Hale, and Dorr, LLP, 
where she became partner in 2007. Her practice focused on 
securities litigation and enforcement and financial 
institutions.
    Ms. Ennis led large teams that included lawyers, forensic 
accountants, and other staff to investigate issues including 
financial statement reporting and disclosure errors, accounting 
irregularities, and misconduct by current or former officers or 
employees.
    Ms. Ennis earned her bachelor's degree from the University 
of North Carolina, Chapel Hill and a Juris Doctorate from the 
Brooklyn School of Law.
    Mr. Hartogensis, we will start with your remarks.

  STATEMENT OF GORDON HARTOGENSIS, NOMINATED TO BE DIRECTOR, 
      PENSION BENEFIT GUARANTY CORPORATION, WASHINGTON, DC

    Mr. Hartogensis. First of all, I would like to thank 
Senator Blumenthal for being willing to give me an 
introduction. Even though he could not be here today, he 
submitted it for the record.
    Thank you, Chairman Cassidy, Ranking Member Wyden, and 
distinguished members of the committee. It is an honor to 
appear before you today as you consider my nomination as 
Director of the Pension Benefit Guaranty Corporation. I want to 
thank the President of the United States for nominating me and 
Secretary Acosta for recommending me. I am here today with my 
wife Grace and my two daughters, Alexia and Penelope, and I 
also want to thank them for their support.
    My journey to this appointment began when I was a teenager. 
I grew up in a middle-class family in Rockville, MD and 
attended Montgomery County public schools. My father served on 
the Rockville City Council and taught me about the importance 
and honor in public service. I have fond and proud memories of 
visiting city hall, attending public events, and watching him 
solve the city's problems. I hope to have the chance to give my 
family that same sense of pride.
    If confirmed, I would be honored to dedicate myself to work 
towards the goal of retirement security of more than 40 million 
Americans. The PBGC is in a difficult financial position today.
    While simulations show that the single-employer program is 
likely to improve during the next decade, the multiemployer 
program continues to decline and has a net deficit of $65 
billion. Congress tried to address this multiemployer deficit 
by enacting the Multiemployer Pension Reform Act legislation in 
2014. However, it has become clear that MPRA is not enough and 
further congressional action is necessary.
    Additionally, the PBGC has operational issues that must be 
addressed. The single-employer program manages a trust fund 
with $106 billion that must be strategically invested to offset 
the program's liabilities. The agency also administers single-
employer plans and provides financial assistance to insolvent 
multiemployer plans that together cover millions of Americans 
who count on these pensions.
    Finally, challenges with information technology at the PBGC 
must be addressed with a particular emphasis on cybersecurity. 
The PBGC, as a repository for large amounts of personal 
financial data, must be vigilant in protecting this information 
that is all too often targeted by hackers seeking financial 
gain.
    Given the large issues facing the agency, I believe that 
the PBGC would benefit from the perspective of an outsider who 
can review these issues with fresh eyes and who has a 
professional track record of addressing problems with 
technological and financial savvy.
    The multiemployer deficit will require a consensus-builder 
at the head of the PBGC. The various stakeholders involved will 
all need to be listened to as we attempt to develop solutions 
to the crisis.
    During my days of building Petrolsoft with two friends from 
Stanford, I worked with stakeholders within major energy 
companies to implement our logistics systems. There were many 
competing objectives that had to be worked out to make our 
projects successful.
    The PBGC will require a strong manager who can lead the 
various teams within the agency. As an owner of two technology 
companies, I have managed teams of salespeople, operations 
staff, financial professionals, call centers, and technology 
groups. I understand how to motivate and inspire employees as 
well as listen to and resolve their concerns.
    I have finance and investment experience that will be 
useful in running the PBGC from an early career in finance, 
from running two companies, and from managing an investment 
portfolio. As an owner of two companies that were acquired, I 
built financial models to determine valuation and participated 
in Q&A sessions with Wall Street analysts. Both companies had 
retirement plans that I helped to merge into the plans of their 
acquirers.
    The PBGC will benefit from an experienced technology leader 
at the helm. I have managed teams of developers and applied 
best practices from industry standards. I have built systems 
that integrated with other enterprise systems. I have worked to 
improve data security and to leverage the cost benefits of 
cloud computing.
    If confirmed as Director of the PBGC, I pledge to work with 
Congress to ensure the pension security of all Americans. The 
multiemployer plans deficit will require strong action from the 
Director of this agency. The perspectives of all stakeholders 
in the system will need to be understood.
    The growing crisis that is expected to make the 
multiemployer program insolvent by 2025 must be handled while, 
at the same time, our pension insurance system must be made 
sustainable. This will require an active communication strategy 
from the Director of the PBGC. Additionally, data must be used 
effectively to both educate and uncover opportunities.
    If confirmed, I would be honored to dedicate myself to work 
towards the goal of retirement security of more than 40 million 
Americans. My mother is living on a pension, and I understand 
the importance of defined benefit pension plans, as they allow 
so many hard-working Americans to retire with dignity and enjoy 
the fruits of a lifetime of work. I would like nothing more 
than to follow in my father's footsteps by giving back and 
applying the skills I have acquired in service to my country.
    Thank you for allowing me to appear today. I am happy to 
answer any questions.
    [The prepared statement of Mr. Hartogensis appears in the 
appendix.]
    Senator Cassidy. Ms. Ennis?

STATEMENT OF GAIL S. ENNIS, NOMINATED TO BE INSPECTOR GENERAL, 
         SOCIAL SECURITY ADMINISTRATION, BALTIMORE, MD

    Ms. Ennis. Good morning, Mr. Chairman, Ranking Member 
Wyden, and members of the committee. Thank you for the 
opportunity to appear before you today.
    I want to thank the President for nominating me for the 
position of Inspector General for the Social Security 
Administration. I am honored to appear before this committee as 
you consider my nomination.
    My sister traveled from Connecticut to be here today, and I 
have friends in attendance. My parents and other sister were 
unable to make the trip from Connecticut, but I am sure they 
are watching.
    I am especially passionate about protecting Social Security 
benefits for those persons in need. For the last several years, 
I cared for my husband as his health declined from the effects 
of dementia. I was thankful that I had the financial means to 
provide for his care, but came to understand the enormous 
financial burden on families caring for sick relatives.
    A Social Security check may be the only financial relief 
many of these families receive and may make the difference in 
their lives and the lives of the people for whom they are 
caring. I am aware that individuals wait sometimes for years to 
receive a disability determination, which is unacceptable, and 
I think we can do better.
    I am cognizant of the many challenges facing the Social 
Security Administration, including disability hearings 
backlogs, payment accuracy, an aging IT infrastructure, issues 
with the disability case processing system, data security, 
improving customer service, and combating fraud.
    Should I be confirmed as the Inspector General for the 
Administration, I will work with Congress and the agency to 
address these and other challenges; to reduce waste, fraud, and 
abuse; and to continue to improve SSA's effectiveness and 
efficiency.
    I am also keenly aware that an Inspector General must be, 
and must be perceived to be, independent of agency management. 
A strong, ethical, and independent IG performs an invaluable 
oversight role for the Congress and for the people of the 
United States.
    My professional career has focused on government and 
independent investigations, including cases related to 
allegations of accounting fraud and violations of government 
regulations. I have counseled companies, audit committees, and 
boards about corporate governance issues, public disclosures, 
and improving processes, procedures, and internal controls. 
Many of my representations have involved large teams of 
lawyers, forensic accountants, IT and discovery professionals, 
and support staff.
    This experience demonstrates that I have the legal, 
financial, investigative, and management skills to serve as an 
effective Inspector General of the Social Security 
Administration.
    Social Security pays out almost $1 trillion in benefits 
annually to seniors, widows and widowers, children who have 
lost a parent, and people with disabilities. Supplemental 
Security Income pays benefits to elderly, blind, or disabled 
people with limited income.
    These programs touch the lives of around 70 million people 
each year and will touch the lives of most Americans at some 
point. For millions of beneficiaries, a Social Security check 
is a vital safety net, allowing them basic necessities: a roof 
over their heads and food on their tables.
    Should I be confirmed as the Inspector General for the 
Social Security Administration, I will work diligently to 
provide oversight for the efficient management of the agency 
and to detect and act on waste, fraud, and abuse so only those 
who qualify receive benefits and receive them on time and 
without error. It is imperative to protect these valuable 
taxpayer dollars so that the American public continues to trust 
and count on this safety net.
    Thank you again for the opportunity to appear before you.
    Senator Cassidy. Thank you.
    [The prepared statement of Ms. Ennis appears in the 
appendix.]
    Senator Cassidy. Now we will begin with questions.
    I am here the whole meeting, so I will defer to my 
colleagues who may have--well, before I begin with questions by 
members of the committee, I am obligated to ask four standard 
questions of our nominees.
    First, is there anything that you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Hartogensis. No.
    Ms. Ennis. No.
    Senator Cassidy. Do you know of any reason, personal or 
otherwise, that would in any way prevent you from fully and 
honorably discharging the responsibilities of the office to 
which you have been nominated?
    Mr. Hartogensis. No.
    Ms. Ennis. No.
    Senator Cassidy. Do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of Congress if you are 
confirmed?
    Mr. Hartogensis. Yes.
    Ms. Ennis. Yes.
    Senator Cassidy. Finally, do you commit to provide a prompt 
response in writing to any question addressed to you by any 
Senator of this committee?
    Mr. Hartogensis. Yes.
    Ms. Ennis. Yes.
    Senator Cassidy. Okay.
    And then I think I will now defer to my colleagues.
    Senator Wyden. Thank you, Mr. Chairman.
    I think what I am going to do is, because I have a number 
of colleagues who are interested, I am going to take this one 
at a time. We will start with you, Mr. Hartogensis, and then, 
Ms. Ennis, we will keep you for the second round.
    Mr. Hartogensis, we met for the first time, and I asked you 
how you would go about tackling the funding crisis that these 
multiemployer pensions are up against. As we talked about, this 
is an extraordinary challenge for the agency you want to lead.
    One in 5 million workers is in a plan that may become 
insolvent in the next 20 years. The insolvency of these plans 
is going to bankrupt the programs for all multiemployer pension 
plans.
    And as we discussed, I asked you for your thoughts. I 
appreciate your getting back to me. And for the reason I 
described in my opening statement--since you do not have 
background in this field, we want to get a sense of how you 
would approach it.
    Now in response, you have essentially one solution, which 
essentially is to alter the PBGC premium structure, 
specifically to broaden the base of who pays premiums. Now, I 
have to be candid with you. The answer is disappointing, and 
what you are going to be up against if that is what you focus 
on is, you will have opposition from both workers and from 
companies.
    The PBGC guarantee for multiemployer pension plans is very 
low. So a solution that only involves premium increases is 
going to lead really, by my take, to significant benefit cuts 
for hundreds of thousands of retirees in pay status now.
    So let us see if we can go beyond that and try some other 
kinds of areas with respect to how you feel about pension 
policy. First, who do you believe should be paying PBGC 
multiemployer premiums who is not paying premiums now?
    Mr. Hartogensis. Thank you for the question.
    I think the point of that idea is the thought that, other 
than just the employers, there is a potential to have employers 
as well as retirees contribute something to increase the 
premium base, rather than just raising the premium rates on the 
employers alone.
    Senator Wyden. So you are saying the workers and the unions 
ought to be paying? I mean, who are we talking about in kind of 
plain English?
    Mr. Hartogensis. Yes. It would be just the employees and 
the employers, both together. These would be the companies as 
well as the employees.
    Senator Wyden. Well, multiemployer pension plans today are 
responsible for paying premiums. But the plans are financed by 
contributions from workers' wages. So ultimately, it is already 
the workers who are paying the premiums.
    Workers also pay union dues so--and I want to give you a 
chance to put it in your words. Is your suggestion ultimately 
that workers should be responsible for increasing the PBGC 
premium base?
    Mr. Hartogensis. Thank you, Senator, for that question.
    I just want to give a little bit more context and 
background for you.
    This is a very complicated issue. And, obviously--I have 
been asked probably in one form or another by every Senator 
whom I have spoken with on this committee as well as the HELP 
Committee, ``What would you do with the multiemployer pension 
crisis?''
    I have watched the hearings of the Joint Select Committee 
on Multiemployer Pensions. So I understand what is at stake. I 
realize that there are employees who risk losing their pension 
checks that they intend to use for things like food and health 
care and rent, basic necessities. So it is a critical issue.
    At this point, kind of coming from the bubble of being a 
nominee, I have looked at and studied the different solutions 
that have been proposed. There have been premium increases----
    Senator Wyden. Let us do this, because my time is short. I 
would like an answer in writing to the question of whether you 
believe that ultimately workers should be responsible for 
increasing the PBGC premium base. You will get back to me in 
writing on that?
    Mr. Hartogensis. I will.
    Senator Wyden. Great.
    Okay. Two other quick questions. I know my colleagues are 
waiting.
    Do you believe that defined benefit pensions are good for 
workers?
    Mr. Hartogensis. I do.
    Senator Wyden. Okay.
    Do you believe that employers should be encouraged to 
sponsor defined benefit pension plans?
    Mr. Hartogensis. I think it really depends upon the 
strategy of the company. There are certain companies where the 
workforce that they hire in certain industries tends to stay 
for short periods of time, and it makes sense to have defined 
contribution plans, because those types of companies--the 
employers want that. That is what they need to attract the 
workers.
    There are other types of businesses where their strategy is 
to retain workers for decades--20, 30, 40 years. In that case, 
the best way to attract those workers and keep them for that 
amount of time is a defined benefit pension plan.
    And as far as retirement security goes, there is nothing 
better. I will stand by that.
    Senator Wyden. Great.
    One last question. Obviously a lot of these issues--and 
your agency does not expressly set policy for unions and 
collective bargaining--but a lot of the issues really speak to 
the negotiating process.
    As a general proposition, do you believe unions and 
collective bargaining are good principles for American workers?
    Mr. Hartogensis. I do think they are good principles for 
American workers.
    Senator Wyden. Thank you, Mr. Chairman.
    I will have some additional questions for you, Ms. Ennis, 
after my colleagues get their first round.
    And if you could get back to me shortly with respect to 
that one matter, Mr. Hartogensis, I would really like your 
views in writing with respect to that question.
    Mr. Hartogensis. Absolutely.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Cassidy. Senator Carper?
    Senator Carper. Thanks so much.
    Welcome to both of you. Ms. Ennis, there is a young lady 
sitting over your shoulder in the front row. Who is she?
    Ms. Ennis. She is my dear friend Ellen Varn's daughter, 
Caroline Varn, who wanted to be here today to see government in 
action.
    Senator Carper. Caroline, you gave up going to school today 
just to be here? Is that right? God bless you. Welcome.
    Mr. Hartogensis, how are you?
    Mr. Hartogensis. Very good. Thank you for asking.
    Senator Carper. Very good.
    I used to live in Palo Alto. I understand you spent some 
time there. We have a son who is going to graduate school out 
there right now.
    I was born in West Virginia. Walking around the Capitol 
yesterday, I ran into a bunch of mostly guys who were wearing 
all of these shirts that said, ``United Mine Workers of 
America.'' Do you know why they were here?
    My dad was a coal miner for a very short while early in his 
life before he went off to serve in World War II. I spent the 
first 6 or 7 years of my life just outside of Beckley, WV, a 
coal mining town.
    My mom used to drag my sister and me to church a lot there. 
One of the things that she wanted us to do was to focus on 
figuring out the right thing to do, not what was easy or 
expedient, but what was the right thing to do. She was a big 
golden rule person: treat other people the way we want to be 
treated.
    I spent about 23 years of my life in the Navy, plus another 
4 years as a midshipman. Along with the things I learned there 
was to surround myself with the best people I could find and 
just rely on people whose judgment I valued in taking on tough 
challenges.
    The other thing I learned in the Navy is, just do not give 
up. If you know you are right, you are sure you are right, do 
not give up.
    I think we know the right thing to do here is to treat 
these folks who are in these pension plans the way we would 
want to be treated. If I were in your shoes, do you know what I 
would do? I would reach out to other folks who had served in 
this capacity previously. I would almost, like, pull them 
together.
    I gave the same advice to Robert Lighthizer when he was 
nominated to be our Trade Ambassador. I said, ``If I were you, 
I would put your predecessors on speed dial, especially the one 
right before you.'' And I would urge you to maybe consider 
doing that.
    If I were in your shoes, I would try to build bipartisan 
support around the common-sense solution. We have 51 Republican 
Senators here, and 49 caucus with the Democrats. If you are 
going to get anything done, you have to have bipartisan 
support. So I would work to create that bipartisan consensus.
    A whole lot of research has been done on this in the past--
I think special committees or subcommittees, a lot of 
investigations, a lot of research. This is a big issue. It is 
not going to go away. And I think it is--what did Einstein used 
to say?: ``In adversity lies opportunity.'' There is real 
opportunity here, and there is a lot of adversity.
    But I would look at this and say, ``How do we put together 
just a great team and go out there and try to solve this once 
and for all, and to reach out to people?'' These two fellows 
off to my left, they are pretty good at working across the 
aisle. I am not too bad either, and I would urge you to take 
advantage of that as we try to get to some kind of consensus.
    In Delaware we have something we call the Delaware way. It 
revolves around the letter ``C.'' Communicate, compromise, 
collaborate, and civility in order to get to a fifth ``C,'' 
consensus, which is what we need here. So you probably do not 
need that advice, but it was heartfelt. I hope it will be of 
some value.
    Ms. Ennis, what do you know about improper payments?
    Ms. Ennis. I know payment accuracy has been an issue for 
the Social Security Administration for some time and that the 
IG's office looks at it on a regular basis. I think that the 
most recent semi-annual report to Congress from the IG 
determined that, for the last several years, the agency has not 
met its own goal of payment accuracy. I think it is 95 percent.
    So it is clearly an issue. I think payment accuracy is 
probably a government-wide issue for many agencies. So, while I 
believe this is an issue that the IG's office has looked at 
regularly and most likely will continue to--and should--I 
wonder if there is not a way to pull together other IGs and 
CIGIE and look at this as a systemic issue that maybe others 
have found ways to deal with that could be effective for the 
Social Security Administration as well.
    Senator Carper. Okay.
    Last year, we were told by GAO that improper payments 
amounted to about $144 billion--$144 billion. I think a little 
more than half of that can be attributed to improper payments 
with respect to Medicaid and I think Medicare.
    There is something at the Social Security Administration--I 
used to call it the ``master death file.''
    Ms. Ennis. Yes.
    Senator Carper. I just like the sound of that. Then I found 
out--people said no, it is not. It is really the death master 
file.
    Ms. Ennis. Right. That is right.
    Senator Carper. And now I have found there is another term 
for it, but the idea is, it is a list you do not want your name 
to be on because, if it is, you are dead. [Laughter.]
    Ms. Ennis. Right. Or, if you are on it improperly, it may 
be difficult to get off of that list. [Laughter.]
    Senator Carper. I am also told--I think we found out that 
there are like, I want to say 5 million people, maybe, on 
records at the--of course, I ask Chris Prendergast, who is 
sitting behind me, to correct me if I am wrong. I seem to 
recall in disclosure last year, maybe this year, that there are 
like 5 million people on--I do not know if it is on the master 
death file, but on some records at the Social Security 
Administration, where they are at or above the age of 112. That 
is a lot of people in this country to be over 112. Actually, I 
think there are maybe 20 if that.
    Ms. Ennis. Right.
    Senator Carper. So that would just beg the question of, can 
we do better? And I would say, ``What do you think?''
    Ms. Ennis. So I understand the importance of the death 
master file, not just for Social Security, but other government 
agencies that purchase and use it, and even third parties.
    I think it is an issue that the IG has looked at as well 
over the years. I think there is a tension between the mission 
of the agency, in terms of how they use the records, and how 
they are utilized by others. But I understand the importance of 
the records, and I think that clearly it is an issue that the 
IG has looked at, and should probably continue to look at. And 
if there are requests from a member, we would consider the 
request----
    Senator Carper. Like a member from a small State on the 
east coast?
    Ms. Ennis. Yes.
    Senator Carper. All right--well, 10 members from small 
States on the east coast.
    Ms. Ennis. From my home State, yes. [Laughter.]
    Senator Cardin. I am glad to be your neighbor, but we have 
some size over you. [Laughter.]
    Senator Carper. We like to say in Delaware, we punch above 
our weight.
    All right. If you get confirmed, and my gut tells me that 
you just might, this is something that we would love to work 
with you on.
    Ms. Ennis. I would love to work with Congress on many 
issues.
    Senator Carper. And in adversity lies opportunity. There is 
adversity here, but also a lot of opportunity for both of you.
    Ms. Ennis. Yes.
    Senator Carper. I will tell you what it says in the Bible. 
What does it say in the Bible? It says, ``In all things, give 
thanks.'' So we give thanks for that adversity, because it is 
going to give you plenty to work on. And maybe, if we are 
smart, we will work on it together.
    Ms. Ennis. Thank you, Senator.
    Senator Carper. There is an old African proverb. I learned 
this from Ron Wyden. There is an African proverb that goes 
something like this. ``If you want to go fast, go alone. If you 
want to go far, go together.'' So we have to go together.
    Senator Cassidy. Senator Cardin, are you ready?
    Senator Cardin. Mr. Chairman, thank you very much.
    Let me welcome both of our nominees. I had a chance to talk 
with both in the anteroom before the hearing started. And we 
had a chance to have some conversations before today. So I 
thank both of you for your willingness to serve in these two 
very important positions.
    I want to start with the challenges at the PBGC. I know you 
have already been asked questions about the multiemployer 
pension system, and obviously, we have a taskforce that we hope 
will come up with some recommendations. It is in crisis. It 
needs to be dealt with.
    You also have a crisis in the single-employer plans, not 
quite as urgent, but it still needs to be dealt with. And it is 
affecting the viability of defined benefit plans in this 
country.
    We also have legislation that we are considering here that 
would deal with the frozen plans so that they have a better 
chance of remaining in existence for those employees who 
currently have benefits under those plans.
    I asked you that as a preliminary, because Senator Portman 
and I have been working together for over 15 years on trying to 
improve retirement security for Americans, recognizing that 
those covered under defined benefit plans are becoming a 
smaller percentage of the coverage for retirement security in 
this country. I think this is also relevant to the role of the 
Social Security Administration IG, in that Social Security was 
never intended to be the sole support for a person's retirement 
income, but it is a life-time guaranteed, inflation-proof 
annuity.
    A defined benefit plan provides a much stronger protection 
for life-time income than the defined contribution plans that 
more and more employees are relying upon who have retirement 
plans in addition to Social Security.
    That is a preliminary to the fact that there are many 
members of this committee, including the members who are here, 
who are working on retirement recommendations. The House is 
taking up in the Ways and Means Committee what is known as 2.0. 
It has some pension reform in that legislation. We have already 
passed some in this committee.
    We need your help in looking at how we can give American 
employees more security for their retirement, with the reality 
that what you do at the PBGC affects a significant number. But 
we need to develop policies that make sense so we can protect 
more people who may not be in the PBGC world, but are coming 
out of the PBGC world.
    So my question is, are you prepared to work with this 
committee and members of this committee as we come forward with 
proposals that may impact PBGC directly or indirectly so that 
we achieve our ultimate objective, more Americans having 
secured retirements and having income that will be available as 
they live longer and longer lives?
    Mr. Hartogensis. The short answer is, absolutely. I 
definitely will work with this committee. I have met many of 
the staff members. I know there is a lot of pension expertise 
here. There is a lot of information that can be shared between 
the PBGC and this committee.
    I also plan to work with the HELP Committee, as well as the 
House committees of jurisdiction, and especially the Joint 
Select Committee that is focused on the multiemployer pensions.
    I do think the pension crisis that you and I talked about 
in our personal meeting is part of this big picture that you 
are talking about. It needs a bipartisan solution. And I think 
one of the things that we came away with was that the sooner 
that we address it, the better, because the longer we wait, the 
more expensive it will be to deal with.
    Senator Cardin. What I am trying to get across is that I 
hope you will look beyond just the tunnel vision of the PBGC 
and the impact that it has on the PBGC stability, but look also 
to help us develop policies that achieve the objective of why 
we had the PBGC, and that is to provide retirement security for 
Americans.
    Mr. Hartogensis. Yes. I realize it is part of the three-
legged stool of retirement security. There is personal savings, 
Social Security, and pensions, and we are certainly part of 
that. So we would work with you.
    Senator Cardin. Thank you.
    Ms. Ennis, I want to ask you one question, if I might. I 
take particular interest in the Social Security Administration. 
Its headquarters are located in Baltimore County, MD. I visit 
it frequently. I meet with the workforce.
    I had a chance to meet with Mr. Saul yesterday, who is the 
nominee to be the Commissioner of the Social Security 
Administration.
    What I said to him, I am going to say to you, and that is, 
it is critically important that we have respect for the working 
conditions of the workers, their collective bargaining, their 
ability to be respected in those negotiations between 
management and worker. And I think it is important that the 
Inspector General be able to give independent assessments as to 
whether those laws are being carried out the way we intended 
for our workforce to have effective collective bargaining 
opportunities within the Social Security Administration. Are 
you prepared to carry out that responsibility?
    Ms. Ennis. Senator, if we were to get a request in the IG's 
office from your office to look into that--I do not know what 
the process for intake of requests is right now in the IG's 
office. I intend to have a well-documented process that we 
follow for every request. It certainly sounds like an important 
issue, and I understand the concern of you and the workers. So 
I would work with your office, should you make a request, to 
see what we could do within the scope of our authorization.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    Senator Cassidy. Senator Menendez?
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Hartogensis, you may be aware that 10 years ago this 
month much of the American economy was in a freefall. The Great 
Recession took most if not all of Americans by surprise. As a 
result, the Federal Government spent trillions of dollars to 
support the economy so America did not slip into a full-blown 
depression.
    Now we are facing another crisis that is a direct result of 
the Great Recession--but one that has not come as a surprise is 
the decline of the multiemployer pension systems. The Federal 
entity overseeing the Federal pension system, the Pension 
Benefit Guaranty Corporation, has projected that it will be 
insolvent by the end of 2025, which would leave hundreds of 
thousands destitute, many more with little to no retirement 
security, and thousands of small and medium-sized businesses 
bankrupt. All of this would surely have ripple effects across 
the economy and affect many, many more Americans and 
businesses.
    So, Mr. Hartogensis, you have been nominated to be the 
Director of the PBGC where, as part of your duties, you will 
oversee the multiemployer pension system and work with Congress 
to put the PBGC on firmer ground. And as you know, this 
position is for a term of 5 years. So to say that the next 5 
years at the PBGC will be critical is an understatement.
    So I have read your bio and I have seen your testimony. I 
see that you do not have a background in pensions. You are not 
waiting on a pension to vest, and you have never offered a 
pension at any of your businesses.
    So that concerns me, because your knowledge of pensions and 
your actions or inactions over the next 5 years, if you are to 
be confirmed, will have a direct impact on either rescuing the 
PBGC or contributing to its insolvency.
    It is incredibly important to me, as I have thousands of 
New Jersey constituents participating in critical and declining 
plans who depend on their pension and now the PBGC for their 
retirement. And there are many more New Jerseyans in healthy 
plans that could be adversely impacted if the PBGC were to 
fail.
    So I am fully aware that Congress has a role in fixing this 
crisis and that the Joint Select Committee is hard at work at 
that, but I for one believe the Federal Government has a 
responsibility to the working-class men and women who, through 
no fault of their own, are facing this crisis. The Federal 
Government stepped in 10 years ago to prevent one financial 
crisis from expanding, and it should step in once again.
    But the action or inaction of Congress, I believe, does not 
give you an excuse to be silent or inactive. The Director of 
the PBGC needs to be an outspoken supporter of the working-
class men and women who depend on these pensions.
    So I need to hear from you. Will you be a forceful advocate 
for Americans who have earned and depend upon these pensions? I 
need to know that you are going to stand up and ensure that 
this last vestige of the Great Recession does not trigger yet 
another recession. I need to hear from you that you will come 
to Congress to adamantly campaign for reforms to protect 
pensioners and not leave them abandoned.
    So, can you give me a simple ``yes'' or ``no''? Will you 
stand with the working class to protect their pensions?
    Mr. Hartogensis. Thank you, Senator, for the question.
    So, right off the bat, a simple ``yes.'' I would like to 
add to that, that this is an important mission for me. I am 
coming from the private sector into Washington. And what makes 
this journey for me meaningful and important is the fact that 
there is such a crisis and there are people who are extremely 
vulnerable, 40 million people total in the system and a subset 
of 10 million in the single-
employer system, who are very, very vulnerable to what is going 
on with the insolvency of the multiemployer system.
    So I see myself as a bipartisan problem-solver who is 
coming in with a background and a track record in building 
companies and managing companies. I believe that I have other 
skills than what you have described that make me a good choice 
for this role, including a background in working with 
forecasting in my career, working with supply-chain companies. 
We would forecast in order to replenish gas stations.
    I think a lot of what the PBGC does, it forecasts to figure 
out solvency in both single- and multiemployer systems.
    Senator Menendez. So I appreciate your short answer 
``yes,'' and I understand what you are saying. But what I want 
to understand, as I determine whether or not to support your 
nomination, is that you can play one of two roles: you can be 
the caretaker who says, ``I am just waiting for Congress to 
tell me what to do,'' or you can play a proactive role that 
seeks to promote the safety and retirement security of all of 
those who depend upon this system.
    I hope that what you are telling me is that you are going 
to be the second one, not just the first one.
    Mr. Hartogensis. I plan to be the second one. That is my 
goal.
    Senator Menendez. All right.
    Thank you very much. I appreciate it.
    Senator Cassidy. Thank you.
    Mr. Hartogensis, I apologize for every now and again 
stumbling over your name.
    Mr. Hartogensis. That is okay.
    Senator Cassidy. I like the way you put it. You have been 
in the bubble of confirmation. So you really do not have the 
kind of palpable knowledge that would allow you to make more 
nuisanced policy decisions--neither of you does. But I was very 
impressed with both interviews I had with you.
    Senator Wyden mentioned how sometimes coming from a non-
government background is beneficial. So let me just ask, what 
in your background prepares you to head this agency? And share 
with us how to bring your management expertise--you spoke 
about, for example, experience merging two different retirement 
plans.
    What in your management background gives you the ability to 
help this agency go forward in a more positive way?
    Mr. Hartogensis. Thank you, Senator, for the question.
    First of all, in terms of understanding the retirement 
needs of employees, I built two different software companies. 
And like I said before in a previous question, we did our 
401(k)s in those.
    But between those two companies, I created over 100 jobs 
and was concerned with the retirement security and the future 
of those employees. We also had a stock option plan in both of 
those. As both companies were acquired, those plans were rolled 
into the plans of the acquirers.
    To address your question of what qualifications do I have 
that will help with running the agency, number one, I think I 
have a really solid management background in leading these two 
software companies. And according to a 2013 National Academy of 
Public Administration report on the PBGC, one of the most 
important criterion for a Director of the PBGC is just 
management, because you are managing teams of not just 
financial professionals that are managing the portfolio, but 
there is also technology. You have to worry about 
cybersecurity. There is customer service. You have a whole call 
center operation.
    I have experience real-time managing mission-critical 
systems doing all of this. One other thing--I will take it a 
step further. I do plan on becoming an advocate for working 
people, an advocate for people who are in these plans, 
especially insolvent multiemployer plans that we are taking a 
look at now.
    To do that, I think my background in consensus-building and 
working with--in my days with Petrolsoft, we built supply chain 
systems that impacted lots of parts of the company. We had to 
get truck drivers, and terminal managers, and dispatchers, and 
corporate management, and different actors within the company 
that had different agendas to come together to work towards the 
goal of making the supply chain more efficient.
    I think in the multiemployer scenario--what I see is, there 
is a very good effort in the Joint Select Committee to find 
solutions. I think there have been structural problems that 
have led to this over decades, and I sense there is still some 
inertia there, and I think I can be a facilitator in helping 
evaluate different solutions and bringing different sides 
together.
    Senator Cassidy. Let me ask, what would you say the three 
most pressing issues are for the Pension Benefit Guaranty 
Corporation?
    Mr. Hartogensis. Thank you.
    Well, the first one is obvious: the multiemployer deficit. 
I would say the second thing, the way I see it, is 
cybersecurity. I think there is a problem in the urgency, 
because it stores a lot of personal financial information which 
would be extremely valuable to hackers, and extremely 
vulnerable to phishing attacks or attacks where people can come 
in and impersonate somebody who maybe has not been found by the 
system and just take their pension--tightening up password 
policies and trying to improve that.
    And then the third, I would say, is just operations of the 
agency in general. I have read in the past that there have been 
issues, obviously, that the Directors leading up to me may have 
been trying to improve--issues with just the call center, the 
customer service of the agency, making sure that when people 
get their pension, it is timely, and if they have a problem, 
they call a call center, the interaction timeline is minimized, 
just to make sure that that is as good as it could be.
    Senator Cassidy. Best practices from the private sector, if 
you will.
    Mr. Hartogensis. Yes.
    Senator Cassidy. Feeding back into your answer for the 
first question.
    Senator Brown?
    Senator Brown. Thank you, Mr. Chairman. Ranking Member 
Wyden, thank you--nice new home, this room.
    I appreciate your being here, and thanks for your 
willingness to serve. I first of all want to thank the staff, 
the committee staff, Jeff and Rebecca and Chris, for the work 
they are doing on, sort of, pensions at large.
    On our pension committee, we had a good productive meeting 
today. And Chris joined us at our hearing in Columbus, our 
field hearing on the pension special committee. What really 
struck me at that hearing, what struck me all along, is the 
pleas of pensioners who are seeing, potentially, their pensions 
cut 40 to 50 percent or more, some of the mine worker widows 
who were only going to get $400 or $500 a month anyway, and 
that just puts them over the edge.
    What struck me about the field hearing we did in Ohio--and 
Chris and I have talked about this, as has Gideon on my staff--
is the look in the eyes of the small businesses, the two 
companies that were represented there: Nickles Bakery from 
Navarre, OH and Spangler Candy from Bryan, OH. And they are, I 
believe, fourth-generation family businesses, very successful, 
employing hundreds of people. And they have a special duty on 
their watch as the third or fourth generation family member to 
keep this company thriving and going.
    If we do not solve this pension issue--the people we think 
most about here are the pensioners, as we should. But these 
companies and what happens to their employees and what happens 
to those communities--because some people say, well, people are 
still going to buy bread. People are still going to buy candy; 
somebody will make it. But not in those two towns, and not with 
those employees, and not with those owners. So I think that is 
important.
    I want to just go through, if I could, Mr. Hartogensis, the 
scope of the multiemployer pension issue to just kind of gauge 
your interest and knowledge, as you likely are going to be 
confirmed and taking over the position.
    Is it true that 130 multiemployer pension plans are in 
critical and declining status?
    Mr. Hartogensis. That sounds about right.
    Senator Brown. Okay.
    Is it true that these 130 plans have 1.3 million 
participants?
    Mr. Hartogensis. That is about the right number as well.
    Senator Brown. Okay.
    Is it true that a plan designated as in critical and 
declining status means that plan will become insolvent in the 
near future?
    Mr. Hartogensis. Yes, it does mean that.
    Senator Brown. Is it true that insolvent plan participants 
will then claim insurance from the PBGC?
    Mr. Hartogensis. It means that the PBGC will offer 
financial assistance to the multiemployer plan.
    Senator Brown. Okay.
    What is the average guarantee the PBGC provides to 
participants in multiemployer programs? Do you know that?
    Mr. Hartogensis. I know the maximum is $12,870 a year for 
30 years of service.
    Senator Brown. And few get the maximum. Well, it will be 
very few who get the maximum.
    Mr. Hartogensis. So the average is probably something less.
    Senator Brown. Considerably less?
    Mr. Hartogensis. Probably the average is considerably less.
    Senator Brown. Is it true that the PBGC multiemployer 
program is running a large deficit?
    Mr. Hartogensis. Yes, it is about $65 billion.
    Senator Brown. It is $65 billion? That is the net----
    Mr. Hartogensis. There is a $67-billion deficit and then $2 
billion in assets.
    Senator Brown. Right.
    When is the PBGC projected to go insolvent?
    Mr. Hartogensis. The end of 2025----
    Senator Brown. Okay.
    Mr. Hartogensis [continuing]. According to the 2017 report.
    Senator Brown. So we agree if you are confirmed, as you 
move forward and take this job, that more than 100 plans with 
1.3 million participants are on the path to insolvency. We also 
agree that this will result in steep cuts to pension benefits 
workers earned and will result in the PBGC multiemployer 
program failing; correct?
    Mr. Hartogensis. That is correct.
    Senator Brown. Is this a crisis? Would you characterize it 
that way?
    Mr. Hartogensis. Actually, in one of the conversations I 
had with another Senator, he made the comment that this is 
probably the largest crisis that people do not know about in 
government. So it is very big.
    Senator Brown. I would actually--even though I have a 
special interest----
    Mr. Hartogensis. That the general public does not know 
about.
    Senator Brown. I would--and this is not really the place 
for this--I would argue that there is another public health 
crisis. This is a public crisis that reaches these proportions 
that is not well known, and that is the number of homes in 
every State in America that have highly toxic levels of lead, 
and we pay no attention to it, and the public does not. But 
that is not really----
    Mr. Hartogensis. I am just quoting some conversation----
    Senator Brown. No, I appreciate it.
    I do not mean to undercut my own argument by saying this. 
[Laughter.]
    Mr. Hartogensis. That is big. We agree.
    Senator Brown. Are you asserting that Congress should act 
immediately?
    Mr. Hartogensis. What I am asserting is that the sooner the 
Congress acts on this, I think the cheaper it will be, the less 
painful it will be. So I think it is to our benefit to do 
something sooner rather than later.
    Senator Brown. And would you assert that inaction is not 
just hurtful to those companies and pensioners, but that it is 
damaging to the economy?
    Mr. Hartogensis. That inaction--I would say it is certainly 
damaging to the local economies where there are concentrated 
people within multiemployer plans.
    Senator Brown. Okay. Thank you.
    Senator Wyden. Mr. Chairman, I am beginning my second 
round, but Senator Brown is the Democrat who represents us on 
the special committee. Would my colleague like to continue with 
any additional questions before I go to a second round?
    Senator Brown. I wanted to gauge interest and knowledge and 
commitment to fix it, and I know that the Hatch committee 
staff, and I know Ranking Member Wyden's staff on the 
Democratic side, and my staff are committed to this, and it 
needs to--I appreciate your comments that if we do not fix it 
this year, it gets harder and harder and harder. That is why we 
wrote the bill bipartisanly, four Republicans, four Democrats, 
each House. We set a deadline on it. It has sort of fast-track 
qualities, passes out of the committee, does not come to this 
committee--no offense to my colleagues on this committee--but 
goes straight to the floor and then to the White House.
    The urgency of this is great. I think your comments 
illustrated that, and that is what I wanted to hear.
    Thank you.
    Mr. Hartogensis. I appreciate your commitment to the issue.
    Senator Brown. Sure. Thank you.
    Senator Wyden. I thank my colleague, and I also want to 
note that Senator Brown has made a special effort to try, as we 
have gone forward on this special committee, to see if we can 
get to common ground. If we can find a place for a bipartisan 
bill, we want to take it up as soon as we possibly can, 
reflecting the urgencies commented on.
    Ms. Ennis, let us go to Social Security for a minute. I 
want to give you my perspective about how I come to this and 
why it is so important.
    I was director of the Oregon Gray Panthers for about 7 
years before I came to the Congress. And I ran the legal aid 
office for the elderly as well. So I was in a lot of Social 
Security offices during those years. And in fact, in those 
days, this was the early days, really, of the American 
consciousness with respect to the challenges faced by older 
people.
    Usually if a town had a meal program for older people and a 
Social Security office was close, that was considered a big-
time, full-fledged network of senior citizen services. I have 
been in a lot of these offices, and I want to tell you about 
something that really was eye-opening and I think reflects how 
serious and urgent some of your work is going to be.
    A few weeks ago, I was in a Social Security field office 
because I had some personal kind of issues I had to take up 
there. And I arrived before the office opened--big line 
stretching all the way around the building. As you know, these 
lines are quite common.
    According to a February Inspector General report, the 
average wait time increased about 42 percent between fiscal 
years 2010 and 2016. During the same period, the number of 
field office visitors who waited longer than an hour doubled. 
It was a 100-percent increase.
    Now, despite these alarming statistics, this program, this 
VIPr program as it is called, Visitor Intake Process Re-write--
only Washington, DC could concoct a name like that--tracks 
field office visitor data. But it does not really capture the 
amount of time people wait outside the office while waiting in 
line. And there are claims that some field offices attempt to 
kind of manipulate the system by ``talking with those who wait 
in line'' and then count that as actually taking care of the 
older person's needs.
    So we understand what the demographics are. Senator Cassidy 
and I have been talking about that in the context of health 
care as well. Ten thousand Americans are turning 65 every day, 
and that is going to be the case for years and years to come. 
So more people are going to visit the offices, call the 800 
number. We have to have reliable services and customer service 
data and the like.
    So my question is, if you are confirmed, what are you going 
to do to look at these agency strategies to figure out how to 
improve the wait times and deal with the 800 number and get us 
some recommendations on how to fix this so-called VIPr system? 
I guess it is sort of a viper, because it kind of wraps its 
neck around you and you do not get your problem solved. But 
what are you going to do to fix it?
    Ms. Ennis. Senator, I too have been to the field office in 
my home area and experienced a little bit of outside-the-
building wait time as well. So I do know what you are 
referencing.
    I know it is an issue that the IG's office has looked at, 
as you have reflected, in prior reports. I can say that I want 
to get into the office, take a look at what we have looked at, 
make sure that we are looking at the critical issues that you 
have expressed here, and then determine whether there are other 
things that we can and should look at.
    Of course, we would work with any Senator's office that 
makes a request to see if the request is something that we can 
accomplish.
    Senator Wyden. What does your gut tell you, Ms. Ennis, 
about whether you have field people manipulating the system to 
improve the wait time?
    Ms. Ennis. I cannot comment on that specific area. I do 
know there have been IG reports about other issues, where there 
is some allegation of moving caseloads to national offices for 
disability--I think it was--where the report was done to look 
at metrics.
    So I think it is an interesting question and something that 
I would be interested in knowing more about, because I do not 
think it is fair to manipulate metrics.
    Senator Wyden. You do your homework. I am not asking you to 
announce that you find this is going on in 40 percent of the 
cases. But you do your homework. You have been to offices. What 
does your gut tell you is going on?
    Ms. Ennis. I do not want to comment on anything that might 
come before the IG's office. What I will say is----
    Senator Wyden. Pardon me. You are not talking about 
national security here.
    Ms. Ennis. Right.
    Well that is true. [Laughter.]
    Senator Wyden. We are not giving out secrets. I am on the 
Intelligence Committee, so I know the difference.
    Ms. Ennis. I think it is important to look at how customer 
service is measured. And I think there are ways to manipulate 
numbers to get a metric goal reached that may not be valid. So 
I think your point is well-taken.
    And if it is going on, I would certainly want to know about 
it, and certainly have my team take a look. I want to 
understand what we have already done in that area to see if 
more needs to be done, and I would, again, welcome any requests 
from your or any other office to look at such an issue.
    Delivery of services is critical, and I know the agency is 
working on alternative delivery methods. But I know that for a 
certain population now, and perhaps into the future, the field 
office visit is critical for them because they may not have a 
computer. They may not be computer-savvy.
    So it is important to have customer service. I know that it 
is a goal of the agency to constantly improve that, and it 
would be a goal of mine as well.
    Senator Wyden. Mr. Chairman, I am over my time on this 
round. I have three additional questions. What is your 
pleasure? Do you want to take your second round and then I will 
wrap up, or what would you like to do?
    Senator Cassidy. No, I have a hard-stop roughly at 11:20.
    Senator Wyden. What time--I cannot--my eyes are----
    Senator Cassidy. It is about 11:15.
    Senator Wyden. How many questions do you have?
    Senator Cassidy. I just want to really quickly--Ms. Ennis, 
similar to the question I asked Mr. Hartogensis, but also 
related to that which you are saying now, you have had a varied 
background. You have worked in hospitality. You have worked 
in--what else did they tell me? You can tell me--advertising--
--
    Ms. Ennis. Advertising.
    Senator Cassidy. Advertising. And so you speak of that kind 
of customer experience, if you will, meeting the customer where 
she is or he is.
    Can you just elaborate, as did Mr. Hartogensis, with regard 
to how your background you think brings you particular insights 
into some of the things that Senator Wyden was referring to?
    Ms. Ennis. From my background in hospitality and the 
advertising industry, understanding the ultimate goal is to 
have a good customer experience--I am certainly familiar with 
that.
    In terms of the broader mandate of the Inspector General, I 
have a very strong background. My law firm career focused on 
internal investigations and government investigations, with a 
focus in many years on accounting fraud investigations, public 
disclosure issues, banking, and securities laws. I managed very 
large teams of lawyers and other professionals, including 
accountants and IT professionals dealing with sort of ``bet 
your company'' type cases.
    I understand how to manage people. I understand strategy, 
budgets, looking at policies and procedures--whether or not 
they comply with the law. And basically what our mission always 
was on these internal and independent investigations was to 
follow the facts--as a partner of mine always used to say--
``without fear or favor'' and go where the facts led us. That 
is how my practice was based, and that is how I would plan to 
run the IG's office as well.
    Senator Cassidy. As a physician, I used to always say, 
``The facts are what matters.'' Truth is what matters, not your 
advocacy point. So that will be a tremendous gift and skillset 
and perspective to bring to the job.
    Again, thank you.
    Ms. Ennis. Yes, thank you.
    Senator Cassidy. Senator Wyden?
    Senator Wyden. Thank you, Mr. Chairman. You have been very 
gracious, Mr. Chairman. I am going to probably go a minute or 
two after your 11:20 hard-stop, and the Hatch team and our team 
have said that that is okay with them. And as we all have noted 
on these Social Security issues, we are very much a bipartisan 
force.
    So, Ms. Ennis, let me ask you now about some of the 
technology issues, starting with cybersecurity, obviously 
important to SSA. In 2017, NIST, the National Institute of 
Standards and Technology, released updated password guidance. 
And the guidance recommended passwords should only be changed 
if there is evidence the password has been compromised, not 
after some arbitrary period.
    In November of 2017, I sent the agency a letter to 
implement NIST's password guidance to eliminate burdensome, in 
effect, password change requirements for Americans using--I 
guess it is called the My Social Security website. Can you say 
this morning that you will investigate the progress, looking at 
NIST and other issues relating to the agency's cybersecurity 
policy program?
    Ms. Ennis. I think cybersecurity is one of the critical 
issues facing not just Social Security, but many, many other 
government agencies. I do not know where the IG office is now 
with their current plans.
    I do think it is a critical issue to look at for this 
agency. I also think it is important for Inspectors General 
generally to work across agencies and with CIGIE, because I 
think this is such a global systemic issue, and I want to make 
sure that whatever the agency is doing is best practice and 
will confer with other IGs to make sure that we all have state-
of-the-art knowledge and hopefully application within the 
agency.
    Senator Wyden. Okay.
    Let us talk authentication, and particularly two-factor 
authentication. The agency has taken steps to improve 
cybersecurity. In 2016, the agency began to offer multi-factor 
authentication to the My Social Security online accounts. It 
was an optional security upgrade, and eventually it became 
mandatory for all of the My Social Security accounts. The 
agency also adopted DMARC.
    In our office, Chris DeGrande is really our point person on 
attack. And he has spent a lot of time on these DMARC issues. 
And DMARC prevents official phishing messages that purport to 
come from SSA.
    Now, to make sure that we are doing everything to protect 
Americans from phishing and other sophisticated cyber-attacks, 
I sent a letter to the agency urging them to consider universal 
second factor, a form of MA that is really resistant to all 
phishing. And should you and your staff want to go into this 
further, Chris DeGrande and our tech team can work with you on 
it.
    SSA responded that the agency is looking at a variety of 
ways to improve online authentication. My question to you is, 
would you commit this morning to reviewing the cost and 
benefits of SSA adopting universal second factor on an opt-in 
basis for all of the My Social Security accounts?
    Ms. Ennis. You know, I think the IG is not just there to 
look at fraud after the fact and find it once it has already 
happened. I think it is important for the IG to work closely 
with the Congress and with the agency to try to prevent issues.
    That sounds like a critical issue to me. I do not know what 
they are doing already, so I certainly would like to work with 
your staff and with--should I be confirmed--my staff to see 
what we can do. It is a huge issue, and it is only going to get 
more important for us to deal with it.
    Senator Wyden. Good.
    With the chair's indulgence, my last question is going to 
be about whistleblowers. I think we all understand that they 
play an important role in identifying, resolving issues of 
waste, fraud, and abuse. And of course, coming forward is 
something that can be pretty perilous. You can face 
intimidation and retaliation. They are real assets.
    And one of the first places whistleblowers go is to the 
Inspector General. This committee has--to the credit of, 
particularly Senator Grassley, Senator McCaskill, a bunch of us 
have joined in this effort to protect whistleblowers. Senator 
Grassley and I are co-chairs of the caucus, and Senator 
McCaskill and Senator Carper are members of it. The Congress 
passed our legislation to permanently reauthorize whistleblower 
protection with a coordinated position in all of the IG 
offices.
    I want to make sure this will be a special priority for 
you. Have you had any experience working with whistleblowers?
    Ms. Ennis. I have had experience. Often when a law firm is 
hired to look at one issue, whistleblowers do reach out to 
outside counsel with other issues.
    I have had a chance to look at policies and procedures that 
clients employ in dealing with whistleblowers, and to recommend 
improvements where we think that there may be deficiencies.
    I think that whistleblower programs are incredibly 
important to Inspectors General, and if I should be confirmed, 
one of my first things will be to look at what the IG's office 
does now, and what the policies and procedures are for intake, 
education, and protection of whistleblowers.
    Senator Wyden. I will wrap up with this.
    The longer that I have been involved in these whistleblower 
issues, the more I am convinced that there are kind of two 
areas. There is the law, and around here we huff and puff that 
I am among the Intelligence Committee and I work with my 
colleagues there, and here we work with our colleagues and the 
like. But the bigger issue is how the people at the top 
establish a culture, a culture that makes it clear that coming 
forward is something you appreciate--it is important to you, 
you can be on their side, they are going to get a fair shake.
    Close with me, if you would, by telling me how you are 
going to promote a culture that is going to allow agency 
employees, contractor employees, to say, ``Hey, we can make 
these disclosures without being fearful that we are going to 
get hammered with retaliation and intimidation and all kinds of 
other stuff.''
    Ms. Ennis. So I often advise clients, as my law firm did 
when there were issues that arose, that ``tone at the top'' is 
critical. That is what we always called it: ``tone at the 
top.''
    If the tone at the top is properly set, it will trickle 
down throughout the agency.
    Senator Wyden. You are going to set the tone if you are 
confirmed.
    Ms. Ennis. I am.
    Senator Wyden. You are going to bring them in at the 
beginning, and you are going to tell them, ``Hey, I want 
everybody to know this is a big deal to me.''
    Ms. Ennis. Absolutely. It is critical to the work of the 
IG, to all IGs, and if I discover that our program is not 
state-of-the-art, I plan to work with CIGIE and other 
Inspectors General to make sure that we are at the top of the 
class.
    Senator Wyden. Thank you, Mr. Chairman. Thank you for all 
of the time.
    Senator Cassidy. I like that term, ``tone at the top.''
    Again, thank you all for your attendance and participation. 
I, again, thank Mr. Hartogensis and Ms. Ennis for their 
willingness to serve in these roles.
    The committee recognizes and appreciates the new tasks you 
have before you, should you be confirmed. We trust that you 
will serve your agencies and our country well.
    I ask that members who wish to submit questions for the 
record please do so by close of business, Thursday, October 
4th.
    With that, the hearing is adjourned.
    [Whereupon, at 11:20 a.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


            Prepared Statement of Hon. Richard Blumenthal, 
                    a U.S. Senator From Connecticut
    Chairman Hatch, Ranking Member Wyden, members of this distinguished 
committee, while my commitments to the Judiciary Committee have 
prevented me from appearing before you today, I am pleased to offer 
written remarks on behalf of my friend, constituent, and fellow 
resident of the great State of Connecticut, Gordon Hartogensis, on his 
nomination to be the Director of the Pension Benefit Guaranty 
Corporation (PBGC).

    The promise of a stable and sustained retirement is a critical part 
of the American dream--one that allows dedicated workers to rest easy 
knowing that they and their loved ones have achieved a secure financial 
future. The PBGC is responsible for protecting pension benefits for 
over 40 million hardworking Americans. It also currently pays benefits 
for about 1.5 million people in failed pension plans when derelict 
companies cannot meet their obligations.

    The need for strong leadership at the helm of the PBGC has never 
been more important. The system is in crisis. There are more than a 
hundred multiemployer pension plans on the brink of disastrous failure, 
and more than 1.3 million workers and retirees across the country--from 
teamsters to musicians--are all at risk of losing their American dream. 
The Central States fund alone, which covers nearly half a million 
truckers, expects to be under water within the next few years. By 2025, 
the PBGC is expected to be completely insolvent.

    I have never questioned Mr. Hartogensis's commitment to his 
community, or his unwavering desire and focus. Mr. Hartogensis's 
extensive time working in financial equities will undoubtedly have 
helped prepare him for the monumental task at hand.

    As the PBGC Director, Gordon will have the opportunity to implement 
innovative solutions to resolve the current multiemployer pension 
crisis, and I expect he will take this task very seriously. I have high 
hopes that Gordon will build on the achievements of the current 
Director, W. Thomas Reeder Jr., who has overseen marked improvements to 
the single-employer pension program. Today, Mr. Hartogensis must 
validate this urgent crisis and detail the specific steps that he will 
take to restore the promise of retirement for millions of Americans.

    I thank the committee for the opportunity to submit introductory 
remarks on behalf of Gordon Hartogensis, and I look forward to helping 
the Director restore the strength of the multiemployer pension system, 
and the PBGC.

                                 ______
                                 
         Prepared Statement of Gail S. Ennis, Nominated to be 
           Inspector General, Social Security Administration
    Good afternoon, Mr. Chairman, Ranking Member Wyden, and members of 
the committee. Thank you for the opportunity to appear before you 
today.

    I want to thank the President for nominating me for the position of 
Inspector General for the Social Security Administration. I am honored 
to appear before this committee as you consider my nomination.

    My sister traveled from Connecticut to be here today, and I have 
friends in attendance. My parents and other sister were unable to make 
the trip from Connecticut, but I am sure they are watching.

    I am especially passionate about protecting Social Security 
benefits for those persons in need. For the last several years, I cared 
for my husband as his health declined from the effects of dementia. I 
was thankful that I had the financial means to provide for his care but 
came to understand the enormous financial burden on families caring for 
sick relatives. A Social Security check may be the only financial 
relief many of these families receive and may make the difference in 
their lives and the lives of the people for whom they are caring. I am 
aware that individuals wait sometimes for years to receive a disability 
determination, which is unacceptable; I think we can do better.

    I am cognizant of the many challenges facing the Social Security 
Administration, including disability hearings backlogs, payment 
accuracy, an aging IT infrastructure, issues with the disability case 
processing system, data security, improving customer service, and 
combating fraud. Should I be confirmed as the Inspector General for the 
Social Security Administration, I will work with Congress and the 
agency to address these and other challenges, to reduce waste, fraud, 
and abuse, and to continue to improve SSA's effectiveness and 
efficiency.

    I am also keenly aware that an Inspector General must be, and must 
be perceived to be, independent of agency management. A strong, 
ethical, and independent IG performs an invaluable oversight role for 
the Congress and for the people of the United States.

    My professional career has focused on government and independent 
investigations, including cases related to allegations of accounting 
fraud and violations of government regulations. I have counseled 
companies, audit committees, and boards about corporate governance 
issues, public disclosures, and improving processes, procedures, and 
internal controls. Many of my representations have involved large teams 
of lawyers, forensic accountants, IT and discovery professionals, and 
support staff. This experience demonstrates that I have the legal, 
financial, investigative, and management skills to serve as an 
effective Inspector General of the Social Security Administration.

    Social Security pays almost $1 trillion in benefits annually to 
seniors, widows and widowers, children who have lost a parent, and 
people with disabilities. Supplemental Security Income pays benefits to 
elderly, blind, or disabled people with limited income. These programs 
touch the lives of around 70 million people each year and will touch 
the lives of most Americans at some point. For millions of 
beneficiaries, a Social Security check is a vital safety net, allowing 
them basic necessities: a roof over their heads and food on their 
tables.

    Should I be confirmed as the Inspector General for the Social 
Security Administration, I will work diligently to provide oversight 
for the efficient management of the agency and to detect and act on 
waste, fraud, and abuse so that only those who qualify receive benefits 
and receive them on time and without error. It is imperative to protect 
these valuable taxpayer dollars so that the American public continues 
to trust and count on this safety net.

    Thank you again for the opportunity to appear before you.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Gail Susan Ennis.

 2.  Position to which nominated: Inspector General, Social Security 
Administration.

 3.  Date of nomination: October 16, 2017.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: October 21, 1962, Bridgeport, 
Connecticut.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received and date degree granted):

        Frank Scott Bunnell High School, Stratford, CT; attended 
        September 1977 through June 1980.

        University of North Carolina, Chapel Hill, NC; attended August 
        1980 through May 1984; degree--B.S., business administration 
        granted May 1986.

        Brooklyn Law School, Brooklyn, NY; attended August 1994 through 
        May 1998; degree--J.D. granted May 1998.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

        Assistant chef, Sheraton Hotel, Durham, NC, 1984 though 1985 
        (approximate).

        Assistant chef, NY Hilton, New York, NY, 1985 through 1985 
        (approximate).

        Assistant restaurant manager, Trumbull Marriott, Trumbull, CT, 
        1985 through 1986 (approximate).

        Media planner, Wells, Rich, Greene, New York, NY, January 1987 
        through September 1988.

        Media planner, Levine, Huntley, Schmidt, and Beaver, New York, 
        NY, September 1988 through June 1989.

        Media supervisor, Lintas, New York, NY, June 1989 through 
        October 1991.

        LSAT review instructor, Stanley Kaplan, New York, NY, September 
        1989 through July 1990.

        Associate media director, Avrett, Free, and Ginsberg, New York, 
        NY, October 1991 through May 1995.

        Director of media planning, Paragon Media, New York, NY, May 
        1995 through May 1998.

        Summer associate, Herrick Feinstein LLP, New York, NY, June 
        1997 through August 1997.

        Associate, WilmerHale LLP, Washington, DC, September 1998 
        through January 2007.

        Partner, WilmerHale LLP, Washington, DC, January 2007 through 
        present.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

        N/A.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

        Partner, WilmerHale LLP.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

        Member, Maryland State Bar Association.

        Member, District of Columbia Bar.

        Director, Gibson Island Corporation.

        Director, Gibson Island Club.

        Vice president, Gibson Island Club.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a 
        candidate.

       None.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees during 
        the last 10 years.

       Republican Party.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years.

       NRSC: $250, January 20, 2010.

       Bob Ehrlich for Maryland Committee: $100, August 10, 2010.

       Issa for Congress: $500, May 10, 2011.

       Romney for President, Inc.: $250, October 11, 2011.

       Fiscal Responsibility PAC: $250, December 9, 2011.

       Evans for Mayor: $50, October 2, 2013.

       Citizens to Elect Steve Schuh: $150, January 15, 2014.

       Friends of Jason Chaffetz: $250, February 14, 2017.

       Right to Rise: $1,000, January 29, 2015.

       Trump Make America Great Again Committee: $250 on the 20th of 
each month from July 2016 through September 2017.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

        Dean's Merit Scholar, Brooklyn Law School 1994-1998.

        Dean's list, Brooklyn Law School 1994-1997.

        Member, Moot Court Honor Society, Brooklyn Law School.

        Senior associate, Journal of Law and Policy, Brooklyn Law 
        School.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

        ``FCIC Commissioners Issue Preliminary Findings on Crisis 
        Causes,'' WilmerHale, December 15, 2010 (coauthor).

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

        N/A.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        For almost 20 years I have practiced securities and banking law 
        at WilmerHale. My practice has focused on leading large teams 
        of lawyers and accountants in complex internal and government 
        investigations often involving Fortune 100 companies. My 
        representations have related to allegations of accounting 
        fraud, tax fraud, insider trading, violations of various 
        securities and banking statutes, and the adequacy of 
        disclosures and governance issues, among other issues. Every 
        investigation has required my team and me to learn the business 
        of the client, including the structure of the organization and 
        its operations. In alleged accounting fraud cases, my team and 
        I worked side by side with forensic accountants, analyzing 
        books and records, audit plans, and work papers.

        I have managed every aspect of these large cases, including 
        case strategy, budgeting, witness interviews, personnel 
        management, oversight of contractors, preparation of internal 
        investigation reports, working with government investigators, 
        and settlement negotiations. As a result of my experience on 
        these complex investigations, I believe I have the legal, 
        financial, investigative, and management skills to serve as an 
        effective Inspector General of the Social Security 
        Administration. It would be my great honor to serve the country 
        and work to eliminate waste, fraud, and abuse in a program upon 
        which so many Americans rely.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

        Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

        None.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

        None.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal government need not be listed.

        None.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items.

        Any potential conflict of interest will be resolved in 
        accordance with the terms of my ethics agreement, which was 
        developed in consultation with ethics officials at the Social 
        Security Administration and the Office of Government Ethics. I 
        understand that my ethics agreement has been provided to the 
        committee. I am not aware of any potential conflict other than 
        those addressed by my ethics agreement.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        See item 4.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
          Questions Submitted for the Record to Gail S. Ennis
               Questions Submitted by Hon. Chuck Grassley
    Question. According to reports in The Des Moines Register and other 
news outlets, Cristhian Bahena Rivera, an undocumented immigrant who is 
currently on trial for murder in Iowa, began using a fraudulently 
obtained Social Security number in 2014 through the time of his arrest 
this summer. Reports indicate that the SSN he used belonged to an Ohio 
man, John Budd, and that the same number was receiving wages in three 
different States all at the same time.

    To your knowledge, did the Social Security Administration know that 
this SSN was being used in three different States at the same time? If 
you don't know, will you find out?

    Answer. I do not know whether the SSA knew that this SSN was being 
used in different States. If confirmed, I will work with the OIG to 
determine whether they have looked at this issue and determine if more 
work is warranted.

    Question. To your knowledge, did the SSA know that this SSN was 
being used fraudulently? If you don't know, will you find out?

    Answer. I do not know whether the SSA knew that this SSN was being 
used fraudulently. Improper or fraudulent use of SSNs is a great 
concern. If confirmed, I will work with the OIG to determine whether 
they have looked at this issue and determine if more work is warranted.

    Question. What mechanisms does the SSA have in place to flag when 
and whether SSNs have been or are being used fraudulently?

    Answer. I do not know what mechanisms the SSA may have in place to 
detect fraudulent use of SSNs. If confirmed, I will work with the OIG 
to determine if any audits or investigative work have been done in this 
area and whether the OIG should include any such work in the future.

    Question. Will you commit to combating SSN fraud, if confirmed to 
the position of Inspector General?

    Answer. Yes. The mission of the Inspector General is to, among 
other things, combat fraud in the programs of the agency. I consider 
SSN fraud to be an important issue and combating such fraud to be part 
of the core mission of the IG.

    Question. Will you commit to conducting an audit into the 
effectiveness of the SSA's current fraud detection and prevention 
measures?

    Answer. As stated above, I believe that working to eliminate fraud 
in the programs of the SSA is part of the core mission of the SSA 
Inspector General. If confirmed as the IG for the SSA, I will work with 
the OIG to determine what work has been done to look at the SSA's fraud 
detection and prevention measures, and I will assess with the OIG 
whether more work should be done.

    Question. Does the SSA know when an SSN is being used in multiple 
jurisdictions--even across State lines?

    Answer. I do not know whether the SSA knows when an SSN is being 
used in multiple jurisdictions. If confirmed, I will work with the OIG 
to determine whether the SSA has safeguards in place to detect SSN 
usage in multiple jurisdictions and whether the OIG should look at this 
issue.

    Question. If so, what does the SSA do when that occurs?

    Answer. As stated above, if confirmed, I will work with the OIG to 
determine what the SSA does regarding SSN usage and whether the OIG 
should conduct inquiries into this issue.

    Question. In 2016, the IRS determined that more than 1 million 
Americans' SSNs were stolen by undocumented immigrants. On July 11, 
2017, I sent a letter to then-IRS Commissioner Koskinen, demanding 
answers about undocumented immigrants fraudulently using another's SSN 
to gain employment.

    Do you know right now how many Americans' SSNs are being used 
fraudulently by undocumented immigrant workers?

    Answer. I do not know.

    Question. To your knowledge, does the SSA keep an account, or 
accounting, for all earnings associated with incorrect or fictitious 
SSNs? This has at times been referred to as the ``earnings suspense 
file.''

    Answer. I do not know whether the SSA maintains an earnings 
suspense file for this purpose.

    Question. Do you know what fraction of the earnings suspense file 
corresponds to the earnings of undocumented immigrants?

    Answer. I do not know.

    Question. In the name of transparency, will you commit to alerting 
Congress and the American people of how many SSNs are currently being 
used by undocumented immigrants? And will you commit to informing the 
American people how much money the SSA receives from those undocumented 
immigrants?

    Answer. Should I be confirmed, if this request is made by a member 
of Congress, I will work with the OIG staff and the requesting member 
to determine if the OIG can provide the requested information, and 
provide it if at all possible.

    Question. Is the SSA legally or statutorily barred from sharing 
information about suspect SSN usage with law enforcement, including 
Federal immigration authorities? If not, to which section in the U.S. 
Code, or to which law, would you or the SSA cite for this prohibition 
of information-sharing?

    Answer. I have not conducted an analysis of the legality of sharing 
information about SSNs with law enforcement, but I know that this 
question is governed, at a minimum, by the Social Security Act, the 
Internal Revenue Code, and the Privacy Act. Should I be confirmed as 
the Inspector General of the SSA, if the OIG receives a request about 
sharing SSN information with law enforcement, I will work with my staff 
and legal counsel to consider the legal questions presented.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
    Question. For fiscal year 2018, I understand that the Office of the 
Inspector General has identified seven management challenges faced by 
the Social Security Administration. These challenges are wide in range 
and include improving customer service, modernizing technology, 
protecting data, and preventing overpayments, among other things. If 
confirmed, which of these would you prioritize moving forward, or have 
you identified other areas you wish to direct your focus on?

    Answer. If confirmed, my priority will be on IT modernization, 
because I believe that a robust, modernized IT environment will have 
implications for many of the other challenges identified by the OIG. 
For example, data protection will be strengthened in a modern IT 
environment, overpayments will be minimized with IT improvements that 
will negate the need for manual actions that sometimes result in 
payment inaccuracies, and a modern IT infrastructure will better 
support the expected increase in demand for online services as baby 
boomers enter retirement.

    Question. In 2017, the SSA, OIG, and local partners announced the 
formation of a Cooperative Disability Investigations Unit in Sioux 
Falls to fight fraud by investigating suspicious disability claims. 
It's estimated that the CDI program as a whole has saved Social 
Security $3.7 billion since its creation 20 years ago. If confirmed, do 
you believe it is important to continue dedicating resources to CDIs, 
and complete the expansion of the program to cover all States by 2022, 
as required by the Bipartisan Budget Act of 2015?

    Answer. CDI units work to detect fraud before disability payments 
are made, which is markedly more cost efficient than ``chasing'' monies 
that are paid out on fraudulent claims. In addition to generating 
billions of dollars in savings for Social Security, the CDI program has 
also generated billions of dollars of savings for non-SSA programs like 
Medicare and Medicaid. I believe that the CDI program has been an 
invaluable tool for the SSA and OIG in detecting and fighting fraud and 
abuse in the disability program and therefore I support expanding CDI 
unit coverage to all States by 2022.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
                            service delivery
    Question. Unfortunately, long waits at Social Security offices are 
a common occurrence. According to a February 2018 SSA Inspector General 
report, the average wait time increased about 42 percent between Fiscal 
Years 2010 and 2016 from 19 minutes to 27 minutes. During the same 
period, the number of field office visitors who waited longer than 1 
hour for service ballooned from 2.3 million to 4.8 million, a 109-
percent increase.

    Despite these alarming statistics, SSA's Visitor Intake Process Re-
write (VIPr) system, which tracks field office visitor data, does not 
fully capture the amount of time people wait outside the offices while 
waiting in line. Moreover, there are claims that some field offices are 
attempting to manipulate the system by ``talking'' with those waiting 
in line and counting that as taking care of that person's needs. At a 
time when 10,000 Americans turn 65 each day and more people are 
visiting Social Security offices or calling the 800 number, SSA needs 
reliable customer service data.

    If confirmed, will you investigate SSA's strategies and tools to 
improve wait times at field offices and on the 800 number, and make 
recommendations about how to improve the VIPr system to provide a more 
accurate depiction of the total wait time?

    Answer. Accurate customer service data is necessary for the SSA and 
Congress to understand how the agency is meeting the needs of the 
public. If confirmed, I will work with the OIG and Congress to assess 
any request to investigate SSA wait time issues and the VIPr system.

    Question. If confirmed, will you commit to investigate SSA's VIPr 
system and determine whether SSA field office staff are manipulating 
the system to improve the field office's overall average wait time?

    Answer. Transparency is critical when evaluating the delivery of 
services to the public, and any allegation of manipulating the system 
to improve data is troubling. If confirmed, I will work with the OIG 
and the Congress to assess any request to investigate the VIPr system 
and allegations related to average wait time.

    Question. In Fiscal Year 2017, SSA's 1,200 field offices served 
about 42 million visitors, completed over 5.6 million new benefit 
applications and replaced about 10 million Social Security cards. As 
millions of Americans become eligible for benefits from SSA, the agency 
has been of closing field offices around the country.

    Will you evaluate SSA's process for determining when a field office 
should be relocated, consolidated, or closed?

    Answer. I understand that many current or prospective Social 
Security beneficiaries prefer using field offices to conduct 
transactions with the SSA rather than using on-line or other service 
delivery methods. I understand from reviewing the SSA OIG materials 
that the OIG has conducted reviews related to the recent closings of 
certain field offices. If confirmed, I will work with the OIG staff to 
determine the scope of the reviews, whether there is ongoing work, and 
whether additional work is warranted.
                            it modernization
    Question. Despite the use of electronic health records, SSA mails 
paper notices to doctors' offices requesting medical records. SSA 
requires DDS adjudicators to only follow up with a doctor's office 
once. It seems that these two practices may hamper the ability of SSA 
to obtain the medical records needed to make an accurate disability 
determination.

    If confirmed, will you commit to investigate the efficacy of SSA's 
current system to obtain medical evidence and make suggestions for 
improvement?

    Answer. Timeliness and accuracy in the disability process are 
critical to serving the needs of people applying for disability. 
Electronic health records aid in the ability of the DDS adjudicators to 
evaluate a disability claim more quickly and accurately. The OIG 
regularly reviews issues related to the disability process. If 
confirmed, I will work with the OIG to assess the work that has been 
conducted related to obtaining medical information and whether 
additional work is warranted.

    Question. In June 2017, the National Institute of Standards and 
Technology (NIST) released updated password guidance. The guidance 
recommends that passwords should only be changed if there is evidence 
that a password has been compromised, not after some arbitrary period. 
In November 2017, I sent a letter urging SSA to implement NIST's 
password guidance to eliminate burdensome and ineffective password 
change requirements for Americans using the ``My Social Security'' 
website.

    Will you investigate SSA's progress implementing the NIST 
guidelines and other efforts to bolster the agency's cybersecurity 
policies?

    Answer. Users of ``My Social Security'' must have confidence that 
SSA is doing all it can to protect their private information and at the 
same time should not be required to face burdensome and ineffective 
barriers to use of the SSA's website. I believe that the OIG regularly 
reviews SSA cybersecurity issues. If confirmed, I will work with the 
OIG to assess any request to review SSA's progress in implementing the 
NIST guidelines and other cybersecurity issues.

    Question. SSA has taken important steps to improve cybersecurity. 
In 2016, SSA began to offer multi-factor authentication, or MFA, to the 
``My Social Security'' online accounts as an optional security upgrade, 
later making it mandatory for all ``My Social Security'' accounts. SSA 
also adopted DMARC which prevents ``official-looking'' phishing email 
messages that purport to come from SSA.

    In the interest of protecting Americans from phishing and other 
sophisticated cyber-attacks, I sent a letter to SSA urging them to 
consider adding Universal Second Factor, or U2F, a form of MFA 
resistant to all phishing. SSA responded that the agency is looking at 
a variety of ways to improve on-line authentication.

    Will you commit to review the cost and benefits of SSA adopting 
Universal Second Factor on an opt-in basis for all ``My Social 
Security'' accounts?

    Answer. If confirmed, I will work with the agency to determine if 
any review of the adoption of U2F has been conducted and will work with 
the OIG to assess whether it should undertake a review.

    Question. In 2017, the General Services Administration (GSA) 
released login.gov, a new online portal for the general public and the 
private sector to use as a single sign-on solution to access government 
services or to conduct business with the government. The portal is 
available to all Federal agencies on an opt-in basis. So far, the 
Department of Homeland Security's Global Entry Program and USAJobs.gov 
site are currently using the login.gov portal. Login.gov employs 
security and privacy measures put forward by the National Institute of 
Standards and Technology (NIST). GSA recently announced that login.gov 
will now accept Universal Second Factor security keys for users to 
access its portal in addition to its existing multi-factor 
authentication security measures.

    In my previous question, I discussed SSA's internal online portal 
and the agency's efforts to protect users' identity while using their 
portal. However, switching to GSA's login.gov may provide SSA more time 
and resources to dedicate to its other IT modernization priorities.

    Will you investigate SSA's evaluation of login.gov as a viable 
security option and provide a cost-benefit analysis of SSA switching to 
login.gov?

    Answer. I believe that cybersecurity issues have government-wide 
implications and that agencies should work together to develop state-
of-the-art protocols and systems. If confirmed, I will work with SSA to 
determine if they have evaluated login.gov as a viable security option 
and whether that evaluation included a cost-benefit analysis of SSA 
switching to login.gov. I will also work with the OIG to assess whether 
it should undertake an evaluation of login.gov and a cost-benefit 
analysis of SSA switching to login.gov.
                        whistleblower protection
    Question. Whistleblowers play an essential role in helping the 
government identify and resolve issues of waste, fraud, and abuse. They 
do this under the threat of intimidation and retaliation. 
Whistleblowers are assets and can help us enhance government efficiency 
and transparency and save taxpayers billions of dollars. One of the 
first places that whistleblowers go to blow the whistle is the Office 
of Inspector General.

    Supporting and protecting whistleblowers should not be a partisan 
issue. My committee colleague, Senator Grassley, and I are co-chairs of 
the Senate Whistleblower Protection Caucus, and two of our Finance 
Committee colleagues--Senators McCaskill and Carper--are members as 
well. In June, Congress passed our legislation to permanently 
reauthorize the Whistleblower Protection Coordinator position in all of 
the Inspector Generals' offices.

    In your previous work, what experience have you had working with 
whistleblowers?

    Answer. In my work as a lawyer conducting government and internal 
investigations, my firm and I have reviewed and investigated 
whistleblower complaints. As part of that work, we reviewed client 
whistleblower policies and procedures and the outcome of the 
complaints. We also recommended changes to strengthen whistleblower 
policies and procedures where appropriate.

    Question. If confirmed, how do you plan to promote a culture that 
will allow SSA and contractor employees to make disclosures while 
protecting them from any intimidation, retaliation, or prohibited 
personnel practices?

    Answer. Whistleblowers are critical to the work of the IG. I 
believe that SSA and the SSA OIG must make whistleblowers comfortable 
that they will not suffer adverse treatment or retaliation by setting 
the appropriate tone at the top. If confirmed, I will analyze past 
claims of retaliation to look for systemic issues. I will also review 
training and communications programs to ensure they clearly explain the 
protections for whistleblowers. Finally, I will make sure that the OIG 
has comprehensive, written policies and procedures for the intake and 
investigation of whistleblower complaints that conform to ``best 
practices'' and include guidance on communications with whistleblowers 
and protection of their identity.
                       role of inspector general
    Question. Looking at your background and work history, you do not 
have any experience with Social Security or social insurance. That is 
not necessarily bad: a fresh set of eyes can provide a new perspective 
or see opportunities that insiders might miss.

    Please tell me how your background, training, and experience make 
you the right person to be the Inspector General of Social Security.

    Answer. For almost 20 years, I practiced securities and banking law 
with a focus on government and independent investigations, including 
cases related to allegations of accounting fraud and violations of 
government regulations. Many of the investigations involved large, 
multi-national corporations or financial institutions and were often 
comprised of large teams of attorneys, forensic accountants, IT and 
discovery professional, and support staff. In alleged accounting fraud 
cases, my team and I worked side by side with forensic accountants, 
analyzing books and records, audit plans, and work papers. I have also 
counseled clients on improving processes and procedures, and internal 
controls to avoid future violations or to comply with settlement terms 
or changes in law or regulations. As a result, I believe I have the 
legal, financial, investigative, and management skills to serve as an 
effective Inspector General of the Social Security Administration.

    Question. Establishing and maintaining independence is a critical 
issue for IGs. IGs must maintain a working relationship with the agency 
head to successfully perform their duties while simultaneously 
remaining independent and accountable to Congress.

    If confirmed, what strategies will you use to balance a working 
relationship with the Commissioner of Social Security while maintaining 
independence?

    Answer. I believe that independence is at the core of the IG 
mission, particularly as it relates to the accountability of the 
agency. I also believe that there are many issues on which agency 
leadership and the OIG can and should partner to advance the interest 
of the SSA, taxpayers, and beneficiaries. For example, the agency and 
the OIG should work closely on combating fraud and abuse in SSA 
programs and operations and on strengthening data security. To that 
end, I believe it is important that the SSA Commissioner and the IG 
have a strong working relationship. If confirmed, I will set a strong 
example of independence through transparency and objective and fair 
audits and investigations. I will also have regular communications and 
meetings with the Commissioner and executive staff, and I will look 
into setting up a working group with participants from the OIG and the 
SSA to identify issues where the OIG and the SSA can share information, 
data, and expertise to fulfill the agency and OIG missions.
                           oig investigations
    Question. As you may be aware, a former Social Security disability 
lawyer, Eric Conn, pleaded guilty to 18 counts of conspiracy, mail and 
wire fraud, false statements, money laundering, and other related 
offenses in connection with a $550-
million Social Security disability fraud scheme. Between 2004 and 2012, 
Mr. Conn submitted false and fraudulent medical documentation in more 
than 2,000 cases to SSA in order to have SSA pay claimants' retroactive 
disability benefits, continue to pay claimants' disability benefits in 
the future, award Medicare and Medicaid benefits to claimants, and pay 
Conn's attorney fees. While we are grateful for the efforts of SSA-OIG 
and the Department of Justice for apprehending him and his 
conspirators, his over 2,000 former clients will face a redetermination 
hearing and may ultimately lose their benefits.

    What information or assistance can the Office of Inspector General 
provide to individuals who are the victims of fraud like those hurt by 
Eric Conn?

    Answer. The OIG plays a role in educating the public about 
fraudulent schemes through fraud alerts posted on the OIG website. The 
OIG also works with the SSA to detect fraudulent schemes and works to 
ensure that the SSA has strong controls to prevent fraud in the SSA's 
programs. The OIG may also refer potential cases of fraud to the 
Department of Justice for prosecution. During an OIG investigation, the 
OIG does not have direct communications with potential victims of 
fraud.
                        dds staff attrition rate
    Question. In FY 2017, State Disability Determination Services (DDS) 
adjudicated over 2.5 million initial claims, about 600,000 
reconsideration claims, and processed about 800,000 continuing 
disability reviews (CDRs). Several years of increasing caseloads 
without sufficient resources have led to high staff turnover at many 
DDSs. In FY 2017, State DDSs lost 1,623 employees, including 1,238 
adjudicators. The attrition rate for FY 2018 is expected to be the 
same. It takes approximately two to 3 years for a disability 
adjudicator to become fully proficient in SSA's rules.

    Will you commit to investigate the impact of DDS staff turnover on 
quality of disability benefit determinations?

    Answer. Employee turnover is an issue at both SSA and DDS offices. 
Loss of institutional knowledge can cause inefficiencies and errors. I 
understand that the OIG regularly reviews the disability process. If 
confirmed, I will review the work the OIG has done to assess DDS staff 
turnover issues and whether more work in this area is warranted.

    Question. According to September 2017 testimony from the National 
Association of Disability Examiners (NADE), the high attrition rate has 
forced DDS offices to shift staff and resources from ``training, 
quality assurance, professional relations, and even supervision and 
management and direct all their resources to claims processing.'' NADE 
also stated that despite critical updates to SSA's medical listings of 
impairments, many DDSs were unable to undertake proper staff training 
about changes. Will you commit to investigate whether DDS staff have 
sufficient training to conduct disability determinations efficiently 
and according to SSA policy?

    Answer. I understand the importance of a thorough training program 
to ensure that DDS staff can conduct disability determinations 
efficiently and according to SSA policy. If confirmed, I will work with 
OIG staff to consider any request for a review of DDS training.
                     evaluation of medical evidence
    Question. Last year, SSA published a final rule regarding the 
evaluation of medical evidence (82 FR 5844). Most notably, under the 
new rule, SSA adjudicators will give no significant weight to the 
medical evidence from the claimant's treating physician. This rule 
would give equal weight to medical evidence from one-time Consultative 
Examinations arranged by SSA or paper file reviews by SSA consultants. 
I am concerned this rule devalues evidence from the claimant's treating 
physician or specialist, who generally has an ongoing relationship with 
the claimant and is likely to provide a detailed, longitudinal picture 
of the claimant's impairment(s).

    Will you commit to investigate how this rule changed the evaluation 
of medical evidence and whether the change resulted in inaccurate SSDI/
SSI initial claim determinations or a higher reversal rate at the 
hearing level?

    Answer. I understand that the OIG regularly reviews the disability 
process. If confirmed, I will work with the OIG to determine whether it 
has investigated issues related to the evaluation of medical evidence 
and whether more work in this area is warranted.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
    Question. As you know, Administrative Law Judges (ALJs) perform 
essential adjudication of Social Security appeals to determine 
benefits. In July, the President issued an executive order to 
reclassify ALJs so they can be selected based on their political 
views--threatening their impartiality through the current ``competitive 
service'' system.

    If confirmed, will you commit to respecting the independence of 
ALJs at the Social Security Administration?

    Answer. I believe it is important that the public have confidence 
that decisions made by ALJs are fair and based on an objective review 
of the facts of the case. I also believe that the Inspector General and 
the OIG must be, and must be perceived to be, independent. If 
confirmed, I will be objective and independent and will respect the 
independence of ALJs.

    Question. Would you use your role as Inspector General to produce 
objective program audits if the administration continues trying to 
politicize ALJs?

    Answer. I believe that impartiality and non-partisanship form the 
core of the IG mission. If confirmed, all program audits and 
investigations conducted by the OIG will be impartial, non-partisan, 
objective, and independent. Should I be confirmed as the Inspector 
General of the SSA, if a member requests that the OIG review the SSA 
ALJ program, I will work with the OIG staff to consider the request.

                                 ______
                                 
             Questions Submitted by Hon. Benjamin L. Cardin
    Question. This August, SSA was slow to comply with Judge Ketanji 
Brown Jackson's decision to reverse the executive orders relating to 
union collective bargaining agreements. Additionally, SSA had been 
particularly harsh among Federal agencies in its enforcement of these 
executive orders, having reduced official time, confiscated union 
equipment, and locked union members from their spaces.

    Should you be confirmed, how will you ensure that SSA will be fair 
and balanced in its relations with its Federal employee unions?

    Answer. Agency compliance with Federal labor laws and regulations 
is essential. If a member requests that the OIG review whether the 
agency is in compliance with Federal labor laws, regulations or court 
orders, if confirmed, I will work with the OIG staff and the requesting 
member to consider the request.

    Question. What actions will you take to ensure that the next 
collective bargaining agreement is in compliance with Judge Jackson's 
ruling?

    Answer. If a member requests that the OIG review whether a 
collective bargaining agreement is in compliance with laws, 
regulations, or court orders, if confirmed, I will work with the OIG 
staff and the requesting member to consider the request.

    Question. Telework is a well-established and accepted practice 
within the Federal Government. SSA management has used telework to 
discipline SAA employees by threatening to take away employees' right 
to telework.

    If confirmed, will you review SSA telework practices and strive to 
stop the current practice of using the ability to telework as a way to 
discipline employees?

    Answer. If requested by a member to review telework practices, if 
confirmed I will work with the OIG and the requesting member to 
consider the request.

    Question. I have been paying close attention to the issue of field 
office closures, and particularly that of the Baltimore North office 
which occurred in June 2018. SSA has planned to consolidate its 
employees and workloads from both the Baltimore North as well as its 
Arlington field offices into others in the area. Many beneficiaries 
are, however, in a poor physical or mental condition for traveling long 
distances, do not possess vehicles, and/or live alone without any 
family, friends, or caretakers to assist them.

    If confirmed, how would you analyze the impact of each field office 
closure?

    Answer. I understand that many beneficiaries find it difficult when 
their local field office closes and they must travel farther to visit 
another field office. I understand from reviewing the SSA OIG materials 
that the OIG has conducted reviews related to the recent closings of 
certain field offices. If confirmed, I will work with the OIG staff to 
determine the scope of the reviews, whether there is on-going work, and 
whether additional work is warranted.

    Question. What steps would you take to ensure that SSA does not 
overburden certain field offices that have to now double their 
workloads due to closures?

    Answer. Should I be confirmed, if a member requests a review of the 
workloads at field offices, I will work with the OIG and the member to 
consider the request.

    Question. How would you ensure that beneficiaries receive 
sufficient notice of any closure or disruption to field office service, 
as well as recommendations from SSA?

    Answer. It is the responsibility of the agency to notify 
beneficiaries of any closures or disruptions to field office services. 
I understand that the SSA OIG has reviewed whether SSA followed its own 
policies and procedures related to field office closures and whether 
notifications were properly provided pursuant to those policies and 
procedures. If confirmed, I will work with the OIG staff to determine 
whether additional work is warranted related to notifications of field 
office closings.

    Question. How would you ensure that program beneficiaries who may 
not be able to travel longer distances to other offices receive the 
support and service they need?

    Answer. I believe that IT modernization is an important part of 
ensuring the efficiency, effectiveness, and safety of alternative 
delivery systems for SSA services. I understand that the SSA OIG 
regularly reviews SSA's IT modernization programs and if confirmed, I 
will continue to review issues related to IT modernization.

    Question. SSA has emphasized its vision for expanded online 
services, perhaps as a substitute for field offices. Polling 
consistently shows that program beneficiaries, who are often not 
technologically savvy, prefer applying for benefits and raising 
questions and claims at field offices with staff representatives, or by 
voice over the phone. The amount of people entering field offices in 
2018 is at a level similar to that of 2000, suggesting that field 
offices continue to provide essential services to the public.

    What steps would you take to balance SSA's need for IT 
modernization and an improved online presence with its field office 
activities?

    Answer. In order to promote effectiveness and efficiency, I believe 
the SSA OIG can work with the agency to develop short-, medium-, and 
long-term goals and strategies related to balancing the need for IT 
modernization and an improved online presence with field office 
activities. I believe the long-term view is that there will be an 
increased demand for online and other alternative delivery services, 
and therefore visits to field offices may decline. However, in the 
short and medium term the balance may be weighted more toward field 
office visits, and, if confirmed, I would work with the agency to 
identify improvement that can be made in the services provided by field 
offices.

    Question. The Social Security Administration has endured years of 
budget cuts and freezes that have taken their toll on the agency's 
service capabilities. Since 2010, the staff has been reduced by 12 
percent, approximately 70 field offices have been shuttered, hours of 
public operation have been reduced, and there is a record high backlog 
in disability appeals. SSA's service delivery has also dipped in 
quality. A significant number of callers to SSA's national 1-800 number 
do not get their questions resolved. As hold times have risen, nearly 
half of callers hang up before connecting and a growing number get busy 
signals. Meanwhile, the average wait for a disability appeal has 
stretched to 20 months. Further cuts would force the agency to freeze 
hiring, furlough employees, shutter more field offices, or further 
restrict field office hours, causing yet longer wait times for 
taxpayers and beneficiaries. Although the agency received a notable 
increase in its budget in FY18, much of those funds went to IT 
improvement and reducing the backlog, not front-line service.

    How would you prioritize service at field offices and teleservice 
centers to ensure that SSA is able to respond to the needs of a growing 
beneficiary population?

    Answer. Should I be confirmed, if a member requests that the SSA 
OIG review agency plans regarding how to best serve beneficiaries, I 
will work with the OIG staff and the requesting member to consider the 
request.

    Question. How do you plan to ensure the levels of staffing needed 
for quality service?

    Answer. While the agency is responsible for developing staffing 
models, if I am confirmed and a request is made, I will work with the 
OIG staff to consider a request to review staffing models and service 
projections.

    Question. What budgetary needs do you anticipate SSA requiring in 
your term? Further, what steps would you take to secure those needs?

    Answer. The SSA OIG's budget has been static for a number of years, 
causing a reduction in the number of investigators and auditors as 
costs for salaries and benefits, which account for approximately 86 
percent of the OIG's budget, increase. If confirmed, I will work to use 
the OIG's budget as efficiently as possible by maximizing the 
collection and analysis of data. I will also work with the SSA to try 
to increase the OIG's budget in order to ensure adequate staffing 
levels.

    Question. Earlier this summer, President Trump signed an executive 
order that removed Administrative Law Judges (ALJs) from the 
competitive civil service, to be selected by agency leadership rather 
than being independently vetted by the Office of Personnel Management.

    How will you ensure that the independence and integrity of SSA's 
ALJs are protected and free from any political influence?

    Answer. I understand that the public must have confidence that ALJ 
decisions are objective and fair and the ALJs are impartial arbiters. 
If confirmed, should a member request that the OIG review ALJ hiring 
practices and decisions to determine if they are objective, I will work 
with OIG staff to consider the request.

    Question. I am very concerned about the disability backlog and the 
de facto SSA quota of 500-700 cases per year per ALJ. A judge handling 
500 cases per year would take approximately 2.5 hours to adjudicate a 
case--2.5 hours to read a file, hold a hearing, make a decision, and 
then draft the decision. The ALJs have done the only case time study we 
are aware of, and that study indicates it takes an ALJ an average of 
7.5 hours to decide a case. My concern is SSA is putting quantity ahead 
of quality.

    If confirmed, will you work with Congress and other stakeholders to 
determine the time required for an SSA ALJ to adjudicate a case and 
abandon arbitrary quotas?

    Answer. While the SSA OIG does not set quotas, if I am confirmed 
and a member requests that the OIG review the time required for an SSA 
AJ to adjudicate a case, I will work with the OIG and the member to 
consider the request.

    Question. The Social Security Act created the SSA as an independent 
agency within the Federal Government charged with providing critical 
benefits to recipients. Projected solvency and trust fund issues have 
prompted many to advocate for privatization, reduction of benefits, and 
delayed eligibility.

    What does the independence of the agency mean to you?

    Answer. Independence is at the core of the IG mission. I believe 
that tone at the top is critical to this mission and intend to set a 
strong example of personal independence for the SSA OIG. I plan to 
ensure organizational independence by maintaining the appropriate 
professional rapport with the Commissioner and agency officials while 
making it clear that the IG's office must not be, or be perceived to 
be, under management's control. I will ensure that the SSA OIG performs 
all audits and investigations in compliance with applicable standards.

    Question. How do you envision your responsibilities with regards to 
Congress?

    Answer. I understand the important oversight role of Congress and 
believe that timeliness and transparency between the OIG and Congress 
is key to helping Congress fulfill its oversight function. My highest 
priority if I am confirmed as Inspector General of SSA will be to 
ensure that Congress continues to have confidence in the integrity and 
independence of the OIG. I will have regular communications with 
Congresspersons and their staff, through meetings, telephone calls, and 
other written communications.

    Question. Can you commit to not taking any actions that, while 
within the scope of your authority, would seek to build a case for 
privatization and similar policies?

    Answer. The Inspector General does not take policy positions and is 
non-partisan. Therefore, I can commit that I will not take any position 
related to privatization or similar policies.

    Question. While provisions in specific retirement security bills do 
not always impact the SSA's mission, I believe that we need to consider 
retirement policy holistically. Social Security is a critical pillar of 
many American's financial security in retirement. It's my hope that we 
will be able to agree on helpful changes to retirement policy both in 
this Congress and going forward.

    Should you be confirmed, will you commit to working with Congress 
to help provide expertise and move bipartisan retirement security 
legislation?

    Answer. If confirmed, I commit to providing expertise to Congress 
if requested. While the OIG does not take policy positions, the OIG is 
required to review existing and proposed legislation and regulations 
for their impact on the economy and efficiency of the SSA's programs 
and operations and the prevention of fraud and abuse. If confirmed, the 
SSA OIG and I will perform that reviewing function diligently and 
comprehensively.

    Question. Federal law requires agencies to bargain in good faith 
with the unions representing their workforce--an obligation that the 
President cannot overturn by executive order. If confirmed, the Senate 
expects you to follow the law.

    Will you hold SSA to honor its collective bargaining agreements by 
rescinding the unilateral changes SSA has made, and not make further 
unilateral changes?

    Answer. To my knowledge, the SSA OIG was not involved in the 
agency's decisions regarding the collective bargaining agreement or any 
changes made. If a member requests that the OIG review whether the 
agency is in compliance with Federal labor laws, regulations, or court 
orders, if confirmed, I will work with the OIG staff and the requesting 
member to consider the request.

    Question. Will you hold SSA to honor the terms of expired 
collective bargaining agreements until reaching a new agreement, by 
rescinding unilateral changes and not making further unilateral 
changes?

    Answer. To my knowledge, the SSA OIG does not get involved in 
issues related to the negotiation of collective bargaining agreements. 
If a member requests that the OIG review whether the agency is in 
compliance with Federal labor laws, regulations, or court orders, if 
confirmed, I will work with the OIG staff and the requesting member to 
consider the request.

    Question. If SSA and its workforce seek to negotiate a new 
collective bargaining agreement, will you commit to bargaining in good 
faith with the unions representing SSA's workforce, and do everything 
in your power to reach an agreement without resorting to the Federal 
Service Impasses Panel to impose terms?

    Answer. It is my understanding that the SSA OIG does not get 
involved in negotiations related to collective bargaining agreements. 
If a member requests that the OIG review whether the agency is in 
compliance with Federal labor laws, regulations, or court orders, if 
confirmed, I will work with the OIG staff and the requesting member to 
consider the request.

                                 ______
                                 
             Questions Submitted by Hon. Sheldon Whitehouse
    Question. SSA collects sensitive data on nearly every U.S. citizen, 
and improper or unauthorized disclosure of this data has the potential 
to negatively affect hundreds of millions of Americans.

    Do you believe the OIG has the requisite skills and expertise to 
perform the assigned tasks related to cybersecurity and information 
technology?

    Answer. I do not have enough information to know whether the OIG 
has the requisite skills and expertise to effectively audit or 
investigate cybersecurity and information technology issues at SSA. If 
confirmed, I will work to assess the OIG's capabilities in this area as 
I believe IT and cybersecurity at SSA are critical issues facing the 
agency and the OIG must work with the agency to make improvements in 
these areas.

    Question. Do you view it as part of the IG's responsibilities to 
ensure SSA's networks and data are adequately protected against theft 
or breach, or merely to evaluate information security policies?

    Answer. While the IG does not have the power to implement changes 
at the SSA related to network and data protection, I view the IG's role 
as more than merely evaluating security policies. I believe the IG 
should assess the strengths and weaknesses of the IT infrastructure to 
determine whether data is adequately protected, along with reviewing 
data protection policies and procedures and compliance with them.

    Question. In your view, is the IG the individual or organization 
best suited to evaluate SSA's information security programs and 
practices and recommend improvements to the agency, or to conduct 
annual Federal Information Security Modernization Act (FISMA) audits?

    Answer. I don't have enough information to assess the OIG's ability 
to evaluate SSA's information security programs and practices. If 
confirmed, I will work to determine if the OIG has the requisite 
skillset to review information security programs and practices and the 
annual FISMA audits. In order to make such a determination, I will work 
with the CIGIE Information Technology Committee and work with other IGs 
to evaluate best practices and necessary skillsets.

    Question. Would these tasks be more effectively performed by an 
outside organization that specialized in information technology and 
cybersecurity?

    Answer. If confirmed, I will assess whether an outside organization 
would have more expertise related to evaluating SSA's information 
security programs and practices. I will also evaluate what other IGs 
are doing in this area. Because information security is a government-
wide issue, I would also want to consult with CIGIE's Information 
Technology Committee and GAO regarding best practices.

    Question. Recent FISMA audit reports have found that ``inadequate 
access controls allowed programmers to have unmonitored access to 
various systems functions, while other users had inappropriate access 
to software.''

    Do you view correction of these shortcomings as a responsibility of 
OIG, or simply of SSA's leadership?

    Answer. The OIG has responsibility to evaluate important issues 
like this one and report on its findings. Ultimately, agency leadership 
has the power and responsibility to implement changes in policy and 
operations where warranted.

    Question. How will you ensure that shortcomings identified in past 
FISMA audits are rectified or mitigated?

    Answer. The OIG can press agency management on making the 
corrections. The OIG can continue to evaluate the issues and publish 
reports to hold agency management accountable. The OIG can also bring 
these issues to the attention of Congress to enable it to make 
appropriate inquiries of agency management.

                                 ______
                                 
       Prepared Statement of Gordon Hartogensis, Nominated to be 
             Director, Pension Benefit Guaranty Corporation
    Thank you, Chairman Hatch, Ranking Member Wyden, and distinguished 
members of the committee. It is an honor to appear before you today as 
you consider my nomination to be Director of the Pension Benefit 
Guaranty Corporation (PBGC).

    I want to thank the President of the United States for nominating 
me and Secretary Acosta for recommending me. I am here today with my 
wife Grace and my two daughters Alexia and Penelope, and I also want to 
thank them for their support.

    My journey to this appointment began when I was a teenager. I grew 
up in a 
middle-class family in Rockville, MD and attended Montgomery County 
public schools. My father served on the Rockville City Council and 
taught me about the importance and honor in public service. I have fond 
and proud memories of visiting city hall, attending public events, and 
watching him solve the city's problems. I hope to have the chance to 
give my family that same sense of pride.

    If confirmed, I would be honored to dedicate myself to work towards 
the goal of retirement security of more than 40 million Americans. The 
PBGC is in a difficult financial position today. While simulations show 
that the single-employer program is likely to improve during the next 
decade, the multiemployer program continues to decline and has a net 
deficit of $65 billion. Congress tried to address this multiemployer 
deficit by enacting the Multiemployer Pension Reform Act (MPRA) 
legislation in 2014. However, it has become clear that MPRA is not 
enough and further congressional action is necessary.

    Additionally, the PBGC has operational issues that must be 
addressed. The 
single-employer program manages a trust fund with $106 billion that 
must be strategically invested to offset the program's liabilities. The 
agency also administers 
single-employer plans and provides financial assistance to insolvent 
multiemployer plans that together cover millions of Americans who count 
on these pensions. Finally, challenges with information technology at 
the PBGC must be addressed, with a particular emphasis on 
cybersecurity. The PBGC, as a repository for large amounts of personal 
financial data, must be vigilant in protecting this information that is 
all too often targeted by hackers seeking financial gain.

    Given the large issues facing the agency, I believe that the PBGC 
would benefit from the perspective of an outsider who can review these 
issues with fresh eyes and who has a professional track record of 
addressing problems with technological and financial savvy.

    The multiemployer deficit will require a consensus-builder at the 
head of the PBGC. The various stakeholders involved--employees, 
retirees, unions, employers, Congress, and taxpayers--will all need to 
be listened to as we attempt to develop solutions to the crisis. During 
my days of building Petrolsoft with two friends from Stanford, I worked 
with stakeholders within major energy companies to implement our 
logistics systems. These included bringing together truck drivers, 
dispatchers, terminal managers, franchisees, IT professionals, and 
corporate management. There were many competing objectives that had to 
be worked out to make our projects successful.

    The PBGC will require a strong manager who can lead the various 
teams within the agency. As an owner of two technology companies, I 
have managed teams of salespeople, operations staff, financial 
professionals, call centers, and technology groups. I understand how to 
motivate and inspire employees as well as listen to and resolve their 
concerns.

    I have finance and investment experience that will be useful in 
running the PBGC from an early career on Wall Street, from running two 
companies, and from managing a private equity and angel investment 
portfolio. At Credit Suisse, I learned how financial markets work. As 
an owner of two companies that were acquired, I built financial models 
to determine valuation and participated in Q&A sessions with Wall 
Street analysts. Both companies had retirement plans that I helped to 
merge into the plans of their acquirers. Managing an investment 
portfolio, I evaluated growing companies for investment worthiness and 
advised many on raising money or improving operations.

    The PBGC will benefit from an experienced technology leader at the 
helm. I have managed teams of developers and applied best practices 
from industry standards. I have built systems that integrated with 
other enterprise systems. I have worked to improve data security and to 
leverage the cost benefits of cloud computing.

    If confirmed as Director of the PBGC, I pledge to work with 
Congress to ensure the pension security of all Americans. The 
multiemployer plans deficit will require strong action from the 
Director of this agency. The perspectives of all stakeholders in the 
system will need to be understood. The growing crisis that is expected 
to make the multiemployer program insolvent by 2025 must be handled 
while, at the same time, our pension insurance system must be made 
sustainable. This will require an active communication strategy from 
the Director of the PBGC. Additionally, data must be used effectively 
to both educate and uncover opportunities.

    If confirmed, I would be honored to dedicate myself to work towards 
the goal of retirement security of more than 40 million Americans. My 
mother is living on a pension, and I understand the importance of 
defined benefit pension plans, as they allow so many hard-working 
Americans to retire with dignity and enjoy the fruits of a lifetime of 
work. I would like nothing more than to follow in my father's footsteps 
by giving back and applying the skills I have acquired in service to my 
country.

    Thank you for allowing me to appear today. I am happy to answer any 
questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Gordon Hartogensis.

 2.  Position to which nominated: Director, Pension Benefit Guaranty 
Corporation.

 3.  Date of nomination: May 14, 2018.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: June 17, 1970; Washington, DC.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list all secondary and higher education institutions, 
dates attended, degree received, and date degree granted):

        Thomas S. Wootton High School, September 1984-June 1988; high 
        school diploma.

        Stanford University, September 1988-June 1992; BS computer 
        science, April 1993.

        Columbia University, September 2014-December 2015; MS 
        technology management, February 2016.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment for each job):

        Hartogensis Family Trust, Greenwich, CT.
        Trustee, September 2011-present.
        Managed assets, VC, angel investments.

        Auric Technology, New York, NY.
        CEO and co-founder, January 2004-August 2011.
        Ran CRM software company.

        Aspen Technology, Del Mar, CA.
        Divisional vice president, June 2000-June 2002.
        Managed Petrolsoft product line.

        Petrolsoft Corporation, Del Mar, CA.
        COO and principal, August 1993-June 2000.
        Built supply chain software for oil companies.

        Credit Suisse, New York, NY.
        FX trader, July 1992-July 1993.
        Traded USD/Yen.

10.  Government experience (list any current and former advisory, 
consultative, honorary, or other part-time service or positions with 
Federal, State, or local governments held since college, including 
dates, other than those listed above):

        N/A.

11.  Business relationships (list all current and former positions held 
as an officer, director, trustee, partner (e.g., limited partners, non-
voting, etc.), proprietor, agent, representative, or consultant of any 
corporation, company, firm, partnership, other business enterprise, or 
educational or other institution):

        N/A.

12.  Memberships (list all current and former memberships, as well as 
any current and former offices held in professional, fraternal, 
scholarly, civic, business, charitable, and other organizations dating 
back to college, including dates for these memberships and offices):

        Belle Haven Land Company Homeowners Association, Greenwich, CT.
        President, June 2013-June 2018 (term ends June 4, 2018).

        Council on Foreign Relations, New York, NY.
        Term member, June 2004-June 2009.

13.  Political affiliations and activities:

        a.  List all public offices for which you have been a candidate 
        dating back to the age of 18.

       N/A.

        b.  List all memberships and offices held in and services 
        rendered to all political parties or election committees, 
        currently and during the last 10 years prior to the date of 
        your nomination.

       N/A.

        c.  Itemize all political contributions to any individual, 
        campaign organization, political party, political action 
        committee, or similar entity of $50 or more for the past 10 
        years prior to the date of your nomination.

       Georgians for Isakson (Senator Johhny Isakson)  $2,700  2015.

       Georgians for Isakson (Senator Johhny Isakson)  $2,700  2015.

       Republican Party of Kentucky  $10,000  2014.

       Republican Party of Kentucky  $10,000  2013.

       Connecticut Republican SCC  $250  2013.

       McConnell Senate Committee '14  $2,500  2012.

       McConnell Senate Committee '14  $2,500  2012.

       Meek for Congress  $2,250  2012.

       Meek for Congress  $250  2012.

       Meek for Congress  $250  2012.

       Congressional Trust 2010  $2,000  2010.

       Connecticut Republican SCC  $1,000  2010.

       Portman for Senate Committee  $2,400  2010.

       Tom Foley for Senate  $1,000  2009.

       Republican Party for Kentucky  $10,000  2008.

       Republican Party for Kentucky  $10,000  2007.

      McConnell Majority Committee  $4,600  2007.

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement received 
since the age of 18):

        Thomas S. Wootton High School valedictorian 1988.

15.  Published writings (list the titles, publishers, dates, and 
hyperlinks (as applicable) of all books, articles, reports, blog posts, 
or other published materials you have written):

        N/A.

16.  Speeches (list all formal speeches and presentations (e.g., 
PowerPoint) you have delivered during the past 5 years which are on 
topics relevant to the position for which you have been nominated, 
including dates):

        N/A.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

        For 25 years I have been engaged in business activities that 
        have included finance management, risk evaluation, problem-
        solving, negotiation, foreign exchange, and responsibility for 
        the management of large investment portfolios. I have started 
        up successful companies and sold companies. I have done 
        consensus- and team-building and worked with large 
        organizations. I believe this experience provides the necessary 
        background to lead the PBGC, a position that requires sound 
        financial decision-making and the ability to work with 
        corporate leaders to provide for the pension security of 
        American workers.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections (including participation in future 
benefit arrangements) with your present employers, business firms, 
associations, or organizations if you are confirmed by the Senate? If 
not, provide details.

        Yes.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

        No.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

        No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next presidential election, whichever is 
applicable? If not, explain.

        Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any current and former investments, obligations, 
liabilities, or other personal relationships, including spousal or 
family employment , which could involve potential conflicts of interest 
in the position to which you have been nominated.

        Please see my ethics agreement accompanying my financial 
        disclosure report.

 2.  Describe any business relationship, dealing, or financial 
transaction which you have had during the last 10 years (prior to the 
date of your nomination), whether for yourself, on behalf of a client, 
or acting as an agent, that could in any way constitute or result in a 
possible conflict of interest in the position to which you have been 
nominated.

        N/A.

 3.  Describe any activity during the past 10 years (prior to the date 
of your nomination) in which you have engaged for the purpose of 
directly or indirectly influencing the passage, defeat, or modification 
of any legislation or affecting the administration and execution of law 
or public policy. Activities performed as an employee of the Federal 
government need not be listed.

        N/A.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that are disclosed by your responses to the above items.

        Please see my ethics agreement accompanying my financial 
        disclosure report. In the event a potential conflict of 
        interest arises, I would seek out and follow the advice of the 
        agency ethics counsel.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

        See item 4.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency 
(e.g., an Inspector General's office), professional association, 
disciplinary committee, or other ethics enforcement entity at any time? 
Have you ever been interviewed regarding your own conduct as part of 
any such inquiry or investigation? If so, provide details, regardless 
of the outcome.

        No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county, or municipal law, regulation, or ordinance, 
other than a minor traffic offense? Have you ever been interviewed 
regarding your own conduct as part of any such inquiry or 
investigation? If so, provide details.

        No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

        No.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

        No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

        N/A.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

        Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

        Yes.

                                 ______
                                 
        Questions Submitted for the Record to Gordon Hartogensis
                 Questions Submitted by Hon. Ron Wyden
    Question. Do you believe that broadening the PBGC's premium base or 
other policies that solely seek to ensure the solvency of the PBGC's 
insurance program for multiemployer pension plans by raising premiums 
are a complete solution to the solvency crisis that some multiemployer 
pension plans--and the workers and retirees who participate in those 
plans--are facing?

    Answer. I have not proposed a comprehensive solution. There is no 
easy solution to insolvent multiemployer plans. Congress has a critical 
role to play in the solution to the multiemployer funding crisis. There 
are many options that need to be examined. If confirmed, I look forward 
to working with the Joint Select Committee on Solvency of Multiemployer 
Pension Plans, Congress, and the President as solutions are proposed. 
Further, if I am confirmed, I look forward to fully and faithfully 
implementing any solution that Congress enacts that is within the 
jurisdiction of the PBGC.

    Question. Do you believe that workers and retirees currently bear 
the economic burden of PBGC premiums? Please explain your answer.

    Answer. Under ERISA sections 4006 and 4007, plans covered by title 
IV must pay premiums to PBGC. Premium rates are set by law. If 
confirmed, I look forward to working with the Joint Select Committee on 
Solvency of Multiemployer Pension Plans, Congress, and the President on 
proposals regarding PBGC premiums.

    Question. If you are confirmed, do you pledge to make PBGC 
technical staff available to members of Congress and their staff 
(regardless of the political affiliation) for the purpose of 
formulating and evaluating pension proposals?

    Answer. Yes. If confirmed, I will make PBGC technical staff 
available to members of Congress and their staff (regardless of the 
political affiliation). PBGC staff have great knowledge, and their 
technical expertise will be helpful to members and staff.

                                 ______
                                 
               Questions Submitted by Hon. Chuck Grassley
    Question. The next Director of the Pension Benefit Guaranty 
Corporation (PBGC) will be coming into a dire situation. More than 100 
multiemployer plans are in critical status and expected to become 
insolvent within the next 20 years. To make matters worse, the PBGC 
multiple employer insurance program is projected to be insolvent by 
2025. In such a scenario, many retirees, including many in my home 
State, could hope at best to receive pennies on the dollar in terms of 
a PBGC benefit should their pension plan fail. No one wants to see this 
happen. As PBGC Director, how would you see your role in assisting 
Congress in developing solutions to address troubled plans and 
strengthen the PBGC multiemployer pension program? Are there any 
particular experiences or insights you think you will bring to the job 
that will be beneficial to this discussion?

    Answer. If confirmed, I will work with the professionals at the 
PBGC, the Joint Select Committee on Solvency of Multiemployer Pension 
Plans, Congress, the President, the board of directors, and the diverse 
array of stakeholders, such as labor unions, employers, and pension 
managers, as solutions are proposed. The PBGC's Pension Insurance 
Modeling System (PIMS) can produce simulations that can assist the 
Joint Select Committee on Solvency of Multiemployer Pension Plans to 
evaluate proposals both in isolation and in combination. Ideas can be 
evaluated based on cost and sustainability and the data analytics 
capability of the PBGC can bring some objectivity to the process. I 
will fully and faithfully work to ensure that the PBGC provides any 
technical assistance requested.

    Question. One plan put forward and supported by many retirees is 
the Butch Lewis Act. This plan would provide a combination of low-
interest loans and financial assistance to troubled plans. Some of the 
proponents of this plan have suggested it could be implemented at less 
cost than shoring up the PBGC's multiemployer pension benefit program 
directly. Is your understanding that passage of a proposal like the 
Butch Lewis Act would solve the PBGC's solvency issues or would the 
PBGC's multiemployer program still require additional funds to remain 
solvent over the long term?

    Answer. If confirmed, I look forward to being briefed on the 
legislation, consulting with PBGC staff, and reviewing the data 
analytics to know if this proposal would be sufficient to address the 
solvency problem. If confirmed, one of my top priorities would be to 
provide objective data to Congress on the cost and sustainability of 
all proposed solutions to the multiemployer crisis.

    Question. Oversight of pension plans and enforcement of the 
Employee Retirement Income Security Act (ERISA) is shared between 
multiple agencies and departments, including the PBGC. What is your 
understanding of PBGC's role in ensuring pension plan assets are not 
put at risk by decisions of an employer sponsor or plan administrator 
that may not be in the best interest of the beneficiaries?

    Answer. A key tenet of the PBGC's mission is to support defined 
benefit pension plans on behalf of the beneficiaries. As an insurer, 
the PBGC evaluates decisions by employer sponsors or plan 
administrators according to how such decisions impact its overall 
liabilities. The PBGC has a responsibility to look after the interests 
of the plan beneficiaries regardless of how its liabilities are 
impacted and should work with all other regulating agencies and 
departments to ensure that workers and retirees are protected.

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
                          multiemployer plans
    Question. Today, the PBGC insures more than 10 million people who 
are covered in more than 1,400 multiemployer pension plans. As economic 
conditions have improved, the overall health of these plans has also 
improved. However, about 10 percent of plans, with about 1 million 
participants, are in ``critical and declining'' status.

    This includes several multiemployer pension plans with Washington 
participants or retirees:

          The Bakery and Confectionery Union Pension Fund,

          The Western States Office and Professional Employees,

          Boilermaker-Blacksmith National Pension Trust, and

          International Association of Machinists and Aerospace 
        workers.

    The PBGC currently provides financial assistance to 72 
multiemployer plans covering over 63,000 participants currently 
receiving benefits, with a maximum benefit of $12,870 per year. This 
often amounts to a cut for retirees, compared to their earned pension 
benefits.

    The PBGC's multiemployer program is likely to run out of money by 
the end of fiscal year 2025.

    What is your plan to help ensure the solvency of these 
multiemployer pension plans and protect the earned retirement benefits 
for these workers and retirees?

    Answer. Unfortunately, there is no easy solution to insolvent 
multiemployer plans. Workers have worked hard for pensions that they 
reasonably expect upon retirement. Congress plays a critical role in 
reaching a solution. If confirmed, I look forward to working with the 
Joint Select Committee on Solvency of Multiemployer Pension Plans and 
Congress to provide technical support as requested. If confirmed, I 
will fully and faithfully implement any solution enacted by Congress 
within the jurisdiction of my leadership.

    Please see continuation of answer below.

    Question. What is your plan for addressing the financing challenges 
faced by the PBGC multiemployer pension program?

    Answer. There are many facets to the problems confronting defined 
benefit pension plans. Congress plays a critical role in addressing the 
financing challenges faced by the PBGC multiemployer pension program. 
If confirmed, I intend to provide technical assistance, as requested, 
to the Joint Select Committee on Solvency of Multiemployer Pension 
Plans and Congress, as Congress works to solve issues regarding 
critical and declining plans, and those involving the structural 
problems of orphan liabilities and withdrawal liability.

    Question. What are the different challenges facing the PBGC 
multiemployer pension program compared to the PBGC single-employer 
program?

    Answer. The PBGC multiemployer program faces many structural 
challenges that don't exist within the single-employer program. For 
example, the problems of orphan liabilities and withdrawal liabilities 
only exist within the multiemployer program. Individual company 
bankruptcies impact other companies connected through multiemployer 
plans and can create what is called a ``contagion effect.'' Similarly, 
downturns in one industry can cause instability in other related 
industries. Therefore, solutions to structural problems in the 
multiemployer space must be holistic and comprehensive.
                        pbgc long-term solvency
    Question. At the end of Fiscal Year 2017, PBGC had a total deficit 
of $76.0 billion. The single-employer program contributes $10.9 billion 
to the deficit, and the multiemployer program contributes $65.1 billion 
to the deficit. The PBGC multiemployer pension program is projected to 
run out of money by 2025. The single-employer plan is projected to 
remain solvent over the next 10 years.

    Some have suggested raising premiums on employers and cutting 
retirement benefits for current and future retirees as a way to address 
the multiemployer insolvency issue. Raising premiums on employers will 
result in reduced retirement benefits for current employees and 
retirees--many of whom may not be able to go back to work and make up 
the lost income from the pension benefit cuts. I believe we should 
protect earned pension benefits for our workers and retirees.

    Given the structural deficits facing the PBGC, what are your plans 
for restoring the PBGC to long-term structural solvency?

    Answer. Unfortunately, there is no easy solution to insolvent 
multiemployer plans. Workers have worked hard for pensions that they 
reasonably expect upon retirement. Congress plays a critical role in 
reaching a solution. If confirmed, I look forward to working with the 
Joint Select Committee on Solvency of Multiemployer Pension Plans and 
Congress to provide technical support as requested. If confirmed, I 
will fully and faithfully implement any solution enacted by Congress 
within the jurisdiction of my leadership.

    Question. What other strategies could we use to address the long-
term solvency of our Nation's multiemployer plans and of the PBGC?

    Answer. Beyond addressing the structural deficit, I believe we 
could look for opportunities to improve the robustness of the data 
analytics within the PIMS system.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
    Question. You stated in your testimony that the MPRA is 
insufficient to address the impending multiemployer pension crisis. 
What changes would you support, or what direction should the Joint 
Select Committee on Solvency of Multiemployer Pension Plans take?

    Answer. Proposals to address these problems should be fully 
evaluated using appropriate economic modeling and data analysis. I do 
not believe there is one easy fix. It is possible that the solution to 
this pension crisis will be a combination of things. I also believe 
this should be a collaborative process. If confirmed, I will work 
closely with the Joint Select Committee on Solvency of Multiemployer 
Pension Plans as well as with Congress, the President, and 
stakeholders.

    Question. You correctly identify the obligation of the PBGC to 
protect the financial data of tens of millions of Americans. Can you 
expand on your experience with ensuring cybersecurity in the private 
sector and how you would apply that if confirmed?

    Answer. I have had significant experience in the technology sector, 
as an owner of two software companies and as a senior level manager in 
a NASDAQ-traded technology firm. In all cases, I had significant 
responsibility in overseeing information technology operations. 
Cybersecurity was always a critical issue. The PBGC, as in all other 
Federal agencies dealing with large amounts of personal data, must be 
constantly attuned to cyber-threats as well as to ways to prevent 
breaches.

    If confirmed, my approach to ensuring proper cybersecurity 
procedures at the PBGC would be to first meet with the Chief 
Information Officer, the Risk Management Officer, and the PBGC 
Inspector General, to better understand the PBGC's specific challenges. 
There are other weaknesses that are commonly found across large 
organizations. For example, I would ask to review the policies of 
password protection and software maintenance. Weak password policies 
are often the source of security breaches and can be strengthened by 
measures such as requiring two factor authentication, regular password 
updates, and strong password character requirements. If it is not 
already implemented, it is worth exploring cybersecurity strategies 
that are classified by the name ``active defense.'' These are dynamic 
strategies that work to significantly raise costs and level of 
difficulty for hackers and cyber-adversaries. Software maintenance is 
also extremely important since known security flaws in software that 
are not patched in a timely manner can often provide easy access for 
hackers. Finally, I would make sure that phishing schemes and 
impersonation scams are properly anticipated. It is especially true in 
the older demographic populations that hackers and criminals will 
attempt to gather personal information via falsified emails or fake 
phone calls which can be used to withdraw money or to gain access to 
online accounts. It often requires a proactive communications strategy 
as well as a well-conceived plan for authentication to prevent such 
attacks.

    Question. The MPRA classifies multiemployer plans into four funding 
status categories ranging from the ``deep red'' critical and declining 
status to ``green'' status. Are these categories and the data used to 
determine them sufficient for PBGC's considerations?

    Answer. The accuracy and usefulness of the four categories depends 
largely upon the criteria used in the classification. Two factors in 
particular have an especially large impact--time horizon and discount 
rate. As a general principle, I am a strong proponent of transparency 
and believe that the models should reflect reality as closely as 
possible. However, changes to these variables will impact funding 
requirements, and sudden shocks could destabilize a very fragile 
multiemployer pension system. Therefore, if confirmed, I would 
recommend moves toward greater transparency in the warning systems but 
also advise that any changes be made prudently.

    Question. How might you apply your background in data analytics to 
uncover new solutions to address the growing number of plans facing 
insolvency?

    Answer. If confirmed, I would hope to leverage the PIMS forecasting 
system to evaluate the current proposals from the Joint Select 
Committee on Solvency of Multiemployer Pension Plans based on cost and 
sustainability. Also, I would look for ways to evaluate ideas in 
combination so that they could be viewed along with existing proposals.

                                 ______
                                 
                 Questions Submitted by Hon. Tim Scott
                         credit rating agencies
    Question. There is little dispute that the lack of due diligence by 
the major credit ratings firms, Standard and Poor's, Moody's, and 
Fitch, exacerbated the 2008 financial crisis. One of the few provisions 
of the Dodd-Frank Act that had broad bipartisan support was section 
939A, which required all Federal agencies to remove credit rating 
agency use requirements in their regulations. Many State insurance 
regulators have since followed suit.

    Unfortunately, there are many large pension funds that continue to 
require credit ratings by specific ratings firms by name as a threshold 
for fixed-income securities purchases in their investment guidelines. 
In some of the more absurd situations, major pension funds were suing a 
certain ratings firm for its negligence during the financial crisis and 
still requiring the use of ratings from the same firm.

    It would seem that when there is better research by a ratings firm 
around a specific potential securities offering than that provided by 
another named ratings firm, the PBGC should want the pension funds it 
guarantees to use the better research and not just check the box with 
the firm named in its investor guidelines.

    Please answer the following with specificity.

    As the guarantor of last resort for the largest pension funds, 
shouldn't the PBGC be using all of the authority it has to ensure that 
they are operated in a safe and sound manner when it comes to the use 
of credit rating agencies?

    Answer. If confirmed, I look forward to a briefing regarding PBGC's 
authority over the use of credit rating agencies. I agree that PBGC 
should be using all of its authority to ensure that pension funds are 
being operated in a safe and sound manner.

    Question. Will you explore your authority to direct pension funds 
to open their investor guidelines to allow investments with ratings 
from any SEC-approved Nationally Recognized Statistical Ratings 
Organizations?

    Answer. Yes. If confirmed, I look forward to a briefing regarding 
the PBGC's authority on investor guidelines.

                                 ______
                                 
             Questions Submitted by Hon. Sheldon Whitehouse
    Question. The Multiemployer Pension Reform Act allows the trustees 
of underfunded multiemployer plans to propose cutting retiree benefits 
as a way to restore the long-term solvency of these plans. I am very 
concerned about efforts to cut retiree benefits as a way to stabilize 
pension plans. Retirees have planned for their futures based on these 
benefits, and maintaining them seems to me to be a matter of simple 
fairness. Do you agree with policies like those in MPRA that allow 
plans to cut retiree benefits?

    Answer. It is important to support the ability of retirement plans 
to honor commitments made to working Americans. I believe early warning 
systems to correct funding levels and maintain long-term solvency 
before a plan reaches such a dire stage should be in place or improved 
if they are failing to prevent the need for benefit cuts.

    Question. In your opening statement, you said that the 
Multiemployer Pension Reform Act ``is not enough and further 
congressional action is necessary.'' Do you believe further 
congressional action should include allowing pension plans more 
flexible authority to cut retiree benefits, or should this authority be 
rolled back and replaced with other stabilizing measures? If the 
latter, what types of authorities would you like to see Congress allow?

    Answer. It is important to support the ability of retirement plans 
to honor commitments made to working Americans. A number of options 
should be examined, and their impacts thoroughly considered, especially 
the effect on retirees. The best solution may be a combination of ideas 
rather than only an extension of current policy.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
offered the following opening statement at a hearing to consider Gail 
Ennis to be Social Security Administration (SSA) Inspector General and 
Gordon Hartogensis to be Director of the Pension Benefit Guaranty 
Corporation (PBGC).

    This morning we are meeting to discuss the nomination of Gordon 
Hartogensis to be the director of the Pension Benefit Guaranty 
Corporation and Gail Ennis to be the Inspector General for the Social 
Security Administration or the SSA.

    Mr. Hartogensis, if confirmed, you will serve during one of the 
most challenging periods the PBGC has ever faced. The Congressional 
Budget Office projects that the PBGC's multiemployer insurance system 
will exceed resources available to pay claims by $45 billion. CBO also 
projects that, under current law, the PBGC multiemployer program will 
become insolvent by 2025. These sobering statistics clearly understate 
the challenges the PBGC faces, particularly in regards to multiemployer 
pension plans.

    Analyzing pension plans and challenges faced by various plans, 
including those that the PBGC deals with or may deal with in the 
future, involves often-complicated computational and forecasting 
abilities, understanding, and skills. It pleases me to learn that Mr. 
Hartogensis has a deep background in many complex analytical skills 
that will be useful in the analyses he will, should he be confirmed, 
have to review and assess. My understanding is that Mr. Hartogensis, in 
his work in the private sector, successfully made use of his analytical 
skill set in analyzing industry and economic trends, as well as 
industry-specific projections of future possible economic and industry 
outcomes. As well, his skill set includes, as I understand it, 
abilities to characterize, estimate, and assess uncertainties 
surrounding projections of future outcomes. Those skills are critical 
for the types of analyses performed in the pension space generally, 
performed at the PBGC, and assessed at the PBGC.

    Once again, this is a sobering moment for the pension system, 
especially multiemployer pensions. Working to help ensure promises of 
lifetime retirement income and security in general is challenging, and 
those challenges are certainly present at the PBGC.

    I have confidence that the analytical skill set possessed by Mr. 
Hartogensis will, should he be confirmed, be of high value at the PBGC 
in helping ensure secure retirements for a large number of hardworking 
Americans.

    Ms. Ennis, as I'm sure you know, the Office of the Inspector 
General at the Social Security Administration has several 
responsibilities, all aimed at promoting economy, efficiency, and 
effectiveness within the administration of SSA programs and operations. 
The Office of Inspector General is also responsible for preventing and 
detecting instances of fraud, waste, and abuse in these programs.

    Moving forward, should Ms. Ennis be confirmed, there will be plenty 
of work to do. The SSA continues to struggle in its efforts to 
modernize its information technology, including a high-cost, multi-year 
attempt to update its disability case processing system. And, under the 
Obama administration, in apparent attempts to pressure congressional 
appropriators, political appointees put forward budget numbers which 
neither I nor SSA itself have been able to corroborate, despite years 
of trying.

    To clarify, that means budget numbers were apparently deliberately 
massaged to influence congressional funding decisions. And, until 
recently, SSA's responsiveness to Republicans in the Senate left a lot 
to be desired. To this day, we still have not received field office 
waiting time data from the agency. It sure is hard to have an informed 
discussion about how SSA is doing without even knowing how long people 
are waiting at SSA offices in Eugene, in Salt Lake City, or anywhere 
else for that matter. These, among other issues, require an effective 
Inspector General, and I believe that Ms. Ennis is well-equipped to be 
just that. Perhaps most relevant to this committee, the Inspector 
General is required to inform both SSA and Congress about agency 
problems and deficiencies. Once identified, the Inspector General also 
recommends corrective action in order to further improve the efficiency 
of the agency.

    Ms. Ennis's legal skills that she has built over her career 
directly relate to the Inspector General position she has been 
nominated for. Her experience managing large teams, finding fraud, 
building reporting structures, and more will help assist her in this 
new role. I believe you will remain committed to acting closely with 
both the administration and the Justice Department, but also acting 
independently when needed. Thank you for your willingness to serve.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    The Finance Committee meets this morning to consider two 
nominations: Gail Ennis to serve as Inspector General of the Social 
Security Administration, and Gordon Hartogensis to serve as the 
Director of the Pension Benefit Guaranty Corporation.

    Let me start my remarks with Ms. Ennis's nomination. Here's the 
bottom line on why Social Security's Inspector General is such an 
important role: it is absolutely essential that the Federal Government 
wring value out of every last dollar that goes into Social Security. 
The Social Security Inspector General plays a major part in identifying 
ways that the program can be improved, where it has misstepped, and how 
the Congress can strengthen it with legislative changes. That, in my 
view, ought to be a bipartisan cause.

    It has been over 2 years since Social Security has had a confirmed 
IG--which is too long, in my book. So we're fortunate to have a nominee 
before the committee today.

    Ms. Ennis comes from outside the world of social insurance, but she 
has a significant background in auditing financial institutions and 
working with government agencies. In my view, sometimes it's a good 
idea to bring in somebody with a fresh eye to administration jobs like 
this one.

    If confirmed, Ms. Ennis will face a lot of challenging issues, from 
the deterioration of service at SSA, to the disability backlog, to IT 
upgrades. This committee will count on her to work with us as we 
continue to make improvements to the program, and she and her team will 
need to listen closely to whistleblowers who come forward with 
information about where problems have come up.

    But setting aside the specifics of this nomination for a moment, 
there's also going to be a challenge for the Congress in the months and 
years ahead. The IG's office recently put out an eye-opening report 
about the huge increase in work waiting to be done at SSA's Program 
Service Centers. Those centers perform some of the most basic functions 
at SSA that are essential to maintaining beneficiary records. Notably, 
the IG's report cited budget constraints as part of the problem. For 
several years in our annual Views and Estimates letter, the chairman 
and I have advocated that SSA receive the budget it needs to get the 
job done. We can't expect world-class service when the Congress 
provides a third-class budget.

    Next, Mr. Hartogensis's nomination to lead the PBGC. In short, the 
PBGC is facing serious challenges. This is an issue that Chairman Hatch 
and Senator Brown know very well, and they're hard at work on solutions 
on a bipartisan basis.

    As many as 1.5 million Americans are enrolled in multiemployer 
pension plans that could become insolvent in the next few decades. If 
that happens, it'll bankrupt the PBGC's insurance program for all 
multiemployer pensions, affecting all who are enrolled. So this crisis 
is not some academic matter--it's a question of whether millions of 
Americans will be able to get by in old age.

    Mr. Hartogensis has had a successful career in the private sector, 
but he doesn't have experience in policy dealing with pensions or 
retirement security. He's got the right political connections to be a 
nominee in this particular Senate, but he has no record from which this 
committee can draw conclusions about what he'd do as the head of PBGC.

    Again, I don't necessarily believe nominees ought to be 
disqualified just because they come to administration positions from 
the outside. However, Mr. Hartogensis will need to provide answers 
today with actual substance about how he wants to tackle the challenges 
PBGC is facing.

    Let me thank Ms. Ennis and Mr. Hartogensis for joining the 
committee today. I'll have questions for both on a variety of issues, 
and I look forward to hearing their answers.

                                   


</pre></body></html>
